<html>
<title> - SPENDING, PRIORITIES AND MISSIONS OF THE NATIONAL PARK SERVICE AND THE PRESIDENT'S FY 2012 BUDGET PROPOSAL</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
SPENDING, PRIORITIES AND MISSIONS OF THE NATIONAL PARK SERVICE AND THE 
                  PRESIDENT'S FY 2012 BUDGET PROPOSAL

=======================================================================

                           OVERSIGHT HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS

                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                        Thursday, March 10, 2011

                               __________

                            Serial No. 112-9

                               __________

       Printed for the use of the Committee on Natural Resources



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
      



                  U.S. GOVERNMENT PRINTING OFFICE
65-120                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fd9a8d92bd9e888e899598918dd39e9290d3">[email&#160;protected]</a>  

                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Charles J. ``Chuck'' Fleischmann, 
    TN
Jon Runyan, NJ
Bill Johnson, OH

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                   Rick Healy, Democrat Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                        ROB BISHOP, UT, Chairman
             RAUL M. GRIJALVA, AZ, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Doug Lamborn, CO                     Rush D. Holt, NJ
Paul C. Broun, GA                    Martin Heinrich, NM
Mike Coffman, CO                     John P. Sarbanes, MD
Tom McClintock, CA                   Betty Sutton, OH
David Rivera, FL                     Niki Tsongas, MA
Scott R. Tipton, CO                  John Garamendi, CA
Raul R. Labrador, ID                 Edward J. Markey, MA, ex officio
Kristi L. Noem, SD 
Bill Johnson, OH
Doc Hastings, WA, ex officio

                                 ------                                
      

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, March 10, 2011.........................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     1
        Prepared statement of....................................     2
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     2
        Prepared statement of....................................     3

Statement of Witnesses:
    Jarvis, Hon. Jonathan B., Director, National Park Service, 
      U.S. Department of the Interior............................     3
        Prepared statement of....................................     5
                                     



OVERSIGHT HEARING ON ``EXAMINING THE SPENDING, PRIORITIES AND MISSIONS 
    OF THE NATIONAL PARK SERVICE AND THE PRESIDENT'S FY 2012 BUDGET 
                              PROPOSAL.''

                              ----------                              


                        Thursday, March 10, 2011

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:03 a.m. in 
Room 1324, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Bishop, Hastings, Young, Duncan, 
Lamborn, Broun, Coffman, McClintock, Rivera, Tipton, Labrador, 
Noem, Johnson, Markey, Kildee, DeFazio, Holt, Grijalva, 
Heinrich, Sarbanes, Sutton, Tsongas, and Garamendi.

  STATEMENT OF THE HONORABLE ROB BISHOP, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Bishop. The Subcommittee will come to order. The Chair 
notes the presence of a quorum, apparently three times over.
    The Subcommittee on National Parks, Forests and Public 
Lands is meeting today to hear testimony on the spending, 
priorities, and the missions of the National Park Service and 
the President's Fiscal Year 2012 budget proposal.
    Under Committee Rule 4[f], opening statements are limited 
to the Chairman and the Ranking Member of the Subcommittee so 
that we can hear from our witness more quickly. However, I ask 
unanimous consent to include any other Members' opening 
statement in the hearing record, if submitted to the clerk by 
the close of business today. And hearing no objections, it is 
so ordered.
    I will state that as our policy for questioning, we will do 
what the full committee does, and simply go by the seniority of 
those present when I bang the gavel down. And with me, you have 
probably an extra four or five minutes to get here before I 
actually bang the gavel down.
    We will do the same thing on the Minority side, unless Mr. 
Grijalva has a change in that. He will be in control of his 
members.
    I also, as we begin, ask unanimous consent--you are in 
control.
    Mr. Grijalva. You are asking too much.
    Mr. Bishop. I ask unanimous consent to have Mr. Holt, the 
gentleman from New Jersey, join us on the dais and participate 
in today's hearing. Hearing no objection. Welcome; thank you 
for being with us today.
    If I could, just in my opening statement, Director Jarvis, 
I want to thank you for appearing before us here this morning 
to present your agency's budget request. The core mission of 
the Park Service is to protect the great natural and historic 
components of our National Park System for the enjoyment and 
use of current and future generations of Americans.
    In fact, to fulfill the purpose of a park, people have to 
see it. And if we don't do that, then there is no purpose for 
having national parks.
    But as we all know, this is a challenging time for the 
Federal budget, just as it is for family budgets of millions of 
Americans. And despite competing demands for limited resources, 
I know that the American people want us to ensure that our 
parks will be kept open, will be maintained, and will be passed 
on to our children in good shape. So protecting the core 
mission of the Park Service means that in a time of fiscal 
constraint, we have to make choices. That means we must 
distinguish between wants and needs, and cannot allow either 
mission creep or a quest for expansive new programs to come at 
the expense of the irreplaceable and existing national 
treasures.
    So I look forward to hearing your budget request, your 
thoughts on how we can ensure a bright future for the Park 
System while staying within a tight budget.
    Before I turn to the Ranking Member for his opening 
statement, I also want to express my thanks to the dedicated 
people who work for the Park Service on the ground, in the 
areas where their service is desperately used and needed, and 
appreciated.
    With that, I will close, and turn the time to the Ranking 
Member for his opening statement.
    [The prepared statement of Chairman Bishop follows:]

           Statement of The Honorable Rob Bishop, Chairman, 
        Subcommittee on National Parks, Forests and Public Lands

    Director Jarvis, I want to thank you for appearing before this 
committee to present your agency's budget request.
    As I see it, the core mission of the Park Service is to protect the 
great natural and historic components of our National Park System for 
the enjoyment and use of current and future generations of Americans. 
But as we all know, this is a challenging time for the federal budget 
just as it is for the family budgets of millions of Americans.
    Despite competing demands for limited resources, I know that the 
American people want us to ensure that our treasured parks will be kept 
open, will be maintained and will be passed on to our children in good 
shape. Protecting the core mission of the Park Service means that at a 
time of fiscal constraint, we must make choices. It means we must 
distinguish between wants and needs. We cannot allow ``mission creep'' 
or a quest for expansive new programs come at the expense of our 
irreplaceable, existing national treasures.
    I look forward to hearing your budget requests and your thoughts on 
how we can ensure a bright future for the Park System while staying 
within a tight budget. Before I turn to the Ranking member for his 
opening statement, I want express my thanks to the dedicated people who 
work for the Park Service for their service.
                                 ______
                                 

 STATEMENT OF THE HONORABLE RAUL GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you very much, Mr. Chairman. And I am 
going to put my statement in for the record so we can expedite 
the hearing, other than to thank Director Jarvis for being 
here.
    And these are difficult times for the Federal budget, but 
the American people overwhelmingly support their parks. And 
every Member of Congress will make the declaration that he or 
she supports the Park. And I know the Director appreciates 
those declarations. But at the same time, this is a time when 
we should be also building the system. This is a time when we 
need to deal with the backlog of maintenance.
    And in doing so, I think even in hard times, during our 
World Wars, the Depression, National Park units were added to 
the Park System. So in difficult times, I think the American 
people still appreciate and want that lasting legacy to be 
protected for them.
    And with that, let me yield back.
    [The prepared statement of Mr. Grijalva follows:]

Statement of The Honorable Raul Grijalva, Ranking Member, Subcommittee 
              on National Parks, Forests and Public Lands

    It is a pleasure to welcome Director Jarvis to the subcommittee. We 
appreciate your time and effort to join us today and your service to 
the country as NPS Director.
    Every Member of Congress says he or she supports National Parks. I 
am sure these declarations of support are appreciated by the Director 
and I know they are appreciated by the American people, who support the 
NPS and its work, overwhelmingly.
    But to truly support National Parks we must support building a 
National Park System for the future. Truly supporting National Parks 
means leaving future generations a system that is even stronger, more 
popular and healthier than the world-class system we inherited.
    Mischaracterizing the dedicated men and women who wear the NPS 
uniform as out-of-touch or uncaring is not the way to support national 
parks. NPS employees care deeply about visitors and about the local 
communities in which they live and work. The truth is that NPS units 
generate millions in revenue and create thousands of jobs for local 
economies.
    Claiming that the National Park Service wants to ``grab'' federal 
land or violate private property rights is not the way to support 
National Parks. The NPS does not own all of the critical parcels needed 
to protect and preserve our national parks, particularly in the face of 
global climate change. The National Park System does not yet represent 
all aspects of the American story and it does not yet attract 
visitation from all segments of the American public. Federal land 
acquisition, from willing sellers only, is not only an appropriate tool 
to address these needs, it is critical to the future of the system.
    And using the maintenance backlog or the economic downturn as 
reasons to oppose expansion of the National Park System is not the way 
to support National Parks. Eight units were added to the system during 
World War I; dozens of units were added during the Great Depression, 
and seven units were added during World War II. If the generations 
before us had the wisdom to invest in national parks during some of the 
most challenging periods in American history, surely we can find a way 
to continue building the system during our time as its stewards.
    Supporting National Parks means supporting more funding for parks 
and park operations; it means supporting targeted federal land 
acquisition to provide the system the resources it needs, it means 
supporting more park professionals to manage our parks and it means 
working diligently with non-federal partners to stop actions that might 
harm national park resources.
    I look forward to hearing from Director Jarvis regarding the 
importance of his mission and how Members of Congress can truly be 
supportive of that mission. I yield back.
                                 ______
                                 
    Mr. Bishop. I thank the gentleman from Arizona. With that, 
we will now hear from our witness, the Director of the National 
Park Service, Jonathan B. Jarvis from the Department of the 
Interior. Mr. Jarvis.

   STATEMENT OF JONATHAN B. JARVIS, DIRECTOR, NATIONAL PARK 
            SERVICE, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Jarvis. Thank you, Mr. Chairman and members of the 
Subcommittee. I greatly appreciate this opportunity to appear 
before you today on the Fiscal Year 2012 President's budget 
request for the National Park Service.
    If I may, I would like to summarize my testimony, and 
submit my entire statement for the record.
    We appreciate the Subcommittee's support for the work we do 
as stewards of our nation's most cherished natural and cultural 
resources. We look forward to continuing to work with you as 
the National Park Service prepares for our second century of 
stewardship, beginning in 2016.
    As any resource manager can tell you, wise stewardship 
sometimes involves making very difficult choices. The National 
Park Service's 2012 budget request reflects a careful and 
serious response to the need to reduce Federal spending by 
supporting our highest priorities, while proposing significant 
reductions to a number of worthy programs.
    In addition to the program reductions, the budget request 
also includes substantial management savings and efficiencies. 
The National Park Service is also making significant progress 
in reducing our unobligated balances.
    The aim of these efforts, Mr. Chairman, is a more targeted 
and focused use of funds, limited to those strategic areas we 
have determined to be the highest priorities of the National 
Park Service.
    By focusing available resources on the areas of greatest 
need, the National Park Service can maintain its existing 
responsibilities while supporting important new initiatives.
    The Fiscal Year 2012 budget proposes total discretionary 
spending of $2.9 billion. This is a net increase of $137.8 
million above the Fiscal Year 2010 appropriation. The budget 
request includes an increase of $39.5 million at more than 100 
parks. Those are very important operational increases at over 
100 units.
    This amount is intended to address operations at new parks 
and other new responsibilities, improve mission-critical 
operations, engage youth in employment and educational 
opportunities, and protect historical assets in parks 
specifically commemorating the Civil War Sesquicentennial.
    Our operations budget is key to helping us continue to 
protect critical and natural resources we are entrusted with, 
and to serve park visitors, who number 285 million each year.
    Supporting America's Great Outdoors Initiative, which 
includes fully funding the Land and Water Conservation Fund 
Programs at $900 million, the NPS budget request includes $160 
million to acquire 98,000 acres of land within authorized 
boundaries of the National Park System. The proposed 
acquisitions were determined through a coordinated process that 
the Department of the Interior now uses, along with the Land 
Management Agencies in DOI, as well as the U.S. Forest Service.
    The criteria we use emphasize opportunities to jointly 
conserve important landscapes, especially river and riparian 
areas, wildlife habitat, urban areas that provide needed 
recreational opportunities, and those containing important 
cultural and historical assets.
    We also look to the ability to leverage partner funds, and 
the degree of involvement with other bureaus, and the urgency 
for project completion.
    Also included in the NPS request is $200 million for the 
Land and Water Conservation Fund State Conservation Grant--that 
is the state side of LWCF--that would enable local communities 
to enhance outdoor recreation opportunities. A portion of these 
funds would be allocated through a competitive component 
targeted at community parks, green spaces, landscape-level 
conservation, and recreational waterways. These grants would 
address the public's concern about the lack of open space and 
outdoor recreation areas in certain urban and other areas that 
were frequently conveyed to us in the listening sessions we 
held for America's Great Outdoors.
    In conjunction with the State Conservation Grants, the 
request includes an increase of $1.1 million for the National 
Park Service's Rivers, Trails, and Conservation Assistance 
Program, to better bolster technical assistance to communities.
    The Fiscal Year 2012 budget also maintains funding at $9.9 
million for the Secretary's Cooperative Landscape Conservation 
Initiative. This initiative will bring networks of resource 
professionals together to promote a science-based understanding 
of the effects of climate change. This will produce practical 
applications that have broad benefits for resource managers 
across the landscape.
    In order to fulfill the Service's stewardship 
responsibilities and sustain key initiatives, the increases I 
have described are offset by program reductions. The budget 
proposes no funding for Save America's Treasures, Preserve 
America Grants, or the Park Partnership Program.
    The request also eliminates funding for statutory 
assistance, and proposes significant reductions in the 
construction accounts, as well as the National Heritage Area.
    In addition, the budget calls for management savings and 
efficiencies totaling $46.2 million.
    I want to speak also about the Park Service effort to 
restrain funding. I would also like to remind you of the 
important economic value of our national parks.
    National parks are drivers of economic growth, particularly 
in gateway communities. They stimulate spending and job 
creation. Taxpayer investments in national parks result in far 
more than the obvious recreational and educational dividends.
    In 2009, park visitors spent $11.9 billion, and supported 
247,000 private sector jobs. Supporting the parks is not just a 
matter of wise stewardship; it is also an economic investment 
in the future.
    Mr. Chairman, in closing I would just like to say how much 
I appreciate the support we have, this committee has held for 
the National Park Service through many, many years, and we look 
forward to working with you. And that is my summary, and I am 
open for questions.
    [The prepared statement of Mr. Jarvis follows:]

   Statement of Jonathan B. Jarvis, Director, National Park Service, 
                    U.S. Department of the Interior

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today at this oversight hearing on the 
spending, priorities, and the missions of the National Park Service 
(NPS) and the President's FY 2012 budget request. We appreciate your 
support for our stewardship of our nation's cherished natural and 
cultural resources and for the important educational and recreational 
opportunities we provide for the American people.

Introduction
    Responding to the need to reduce Federal spending in a difficult 
economic climate, the FY 2012 budget request for the NPS contains 
strategic spending increases combined with selected program reductions 
and eliminations, made only after serious and careful deliberation. The 
FY 2012 budget proposes total discretionary appropriations of $2.9 
billion and $394.5 million in mandatory appropriations for total budget 
authority of $3.3 billion. This is a net increase of $137.8 million 
above the FY 2010 discretionary appropriations and an estimated net 
decrease of $13.0 million in mandatory appropriations from FY 2010.
    National parks are drivers of economic growth, particularly in 
gateway communities. They stimulate spending and job creation. Taxpayer 
investments in national parks result in far more than the obvious 
recreational and educational dividends. In 2009, park visitors spent 
$11.9 billion and supported 247,000 private-sector jobs. The 
President's budget will ensure that national parks continue to serve 
the 285 million visitors who come every year to relax in America's 
great outdoors and learn about the people and places that make up 
America's story.
    The FY 2012 budget request supports continued stewardship of this 
Nation's most cherished resources through the Administration's 
America's Great Outdoors initiative--a landmark investment in engaging 
people, particularly youth, in America's outdoors and conserving our 
Nation's natural and cultural heritage. It also supports the 
Secretary's goals of cooperative landscape conservation and engaging 
America's youth in the great outdoors.

Budget Summary
    The FY 2012 budget request reflects the President's commitment to 
our national parks with an increase of $276.6 million over the FY 2010 
enacted level, as part of the Administration's America's Great Outdoors 
initiative. A key component of this initiative is bolstering 
operational funding at park units that need it most. The budget 
requests an increase of $39.5 million for park operations at new parks, 
and to address new responsibilities, improve mission critical 
operations, engage youth in employment and educational opportunities, 
and protect historical assets at parks commemorating the Civil War 
sesquicentennial.
    Further supporting the America's Great Outdoors initiative, the NPS 
budget request plays a key role in the Administration's proposal to 
fully fund Land and Water Conservation Fund (LWCF) programs at $900 
million in FY 2012. The NPS request is critical to achieving the goals 
inherent in the LWCF Act of 1965, which was designed to use revenues 
generated through the depletion of natural resources for State and 
Federal land acquisition and the enhancement of lands and waters for 
recreational and conservation purposes. The request includes $160.0 
million for Federal Land Acquisition, an increase of $73.7 million from 
FY 2010, which would be used to leverage other Federal resources, along 
with those of non-Federal partners, to achieve shared conservation 
outcome goals in high-priority landscapes. The request also includes 
$200.0 million for the State Conservation Grants program, of which 
$117.0 million would be targeted to a new competitive matching grants 
program for States to create and enhance outdoor recreation 
opportunities.
    The FY 2012 request maintains NPS funding of $9.9 million for the 
Secretary's Cooperative Landscape Conservation initiative. This 
initiative will bring together natural resource professionals at the 
Federal, State, and local level through real and virtual connections to 
facilitate the wider sharing of information. These networks of resource 
professionals will be supported by science centers that translate 
global scientific understanding of environmental change into solutions 
at the landscape level. A science-based understanding of these issues 
and their practical applications will have broad benefits for resource 
managers that are wrestling with the need to find practical and cost-
effective approaches to conservation in the face of economic 
challenges. With this funding, resource monitoring will increase at 
more than 150 of the most vulnerable parks in high elevation, high 
latitude, arid, and coastal areas, such as monitoring for melting 
permafrost in Alaska and changes in salt marsh salinity along the South 
Atlantic coast. Additionally, over 500 employees will be trained to 
incorporate adaptation approaches into resource management.
    In order to uphold our stewardship responsibilities and sustain key 
initiatives, the National Park Service undertook a rigorous review of 
our ongoing activities and made difficult choices. The proposed budget 
eliminates funding for Save America's Treasures grants, Preserve 
America grants, and the Park Partnership Projects program. Further, the 
request eliminates funding for Statutory Assistance and proposes 
significant reductions in the NPS Construction and National Heritage 
Areas programs.
    In addition to the program reductions the budget includes 
management savings and efficiencies totaling $46.2 million, including 
$18.4 million that will be realized in 2011. The NPS will realize the 
remaining savings in 2012 by reducing $24.8 million in supplies and 
material, and $3.0 million in savings for travel and transportation of 
persons. In proposing the reductions and absorptions requested in the 
FY 2012 request, we have been careful to protect park operations as 
much as possible, and we continue to advance innovative approaches to 
collaboration and cost savings. The consolidation of our workforce 
management, acquisition, and contracting offices are prime examples of 
strategies that will, in future years, deliver greater services at less 
cost.
    I would also like to mention the significant progress we have made 
in responsibly reducing our unobligated balances. Over the past two 
years, we implemented a number of policy and program changes, including 
reducing retention percentages at larger fee-collecting parks if their 
unobligated balances exceeded 35 percent of gross revenue. The result 
has been a more efficient targeting of funds to where it's needed most 
for the benefit of park visitors and protecting resources. It has also 
allowed individual parks more independence in project selection and 
expedited the approval of small fee projects. The unobligated balance 
for this program was reduced from $218 million at the end of FY 2009 to 
$86 million on January 1, 2011.

Operation of the National Park System
    The FY 2012 budget requests $2.3 billion for the ONPS, a 
programmatic increase of $72.9 million over the 2010 enacted level, but 
a net increase of $35.3 million. This includes $39.5 million for park 
base increases which would benefit over 100 parks. The funds would be 
used to sustain and improve the condition of cultural resources; 
provide for new areas and responsibilities; ensure the continuation and 
improvement of mission critical operations; engage youth; and work 
collaboratively with partners. These increases are also a critical 
component of addressing key goals of the Administration's America's 
Great Outdoors initiative and connecting the public to the Nation's 
natural and cultural heritage and treasures. Other major increases 
improve capacity to perform repair and rehabilitation of park assets 
($7.5 million), consolidate workforce management and acquisition 
offices ($6.8 million), increase baseline inventories of park cultural 
resources ($4.5 million), enhance cyclic maintenance efforts ($3.2 
million), expand security at park icons ($1.8 million), facilitate 
information sharing and resource protection of park cultural resources 
($1.5 million), and address oceans and coastal stewardship ($1.3 
million).
    The FY 2012 budget proposes a net increase of $5.7 million in 
support of the Secretary's Youth in the Great Outdoors initiative, 
which seeks to foster a life-long stewardship ethic in young people. 
The NPS is dedicated to engaging America's youth in developing a life-
long awareness of, and commitment to, our national parks, and we have 
proposed this investment in 27 parks as part of park base funding to 
establish youth programs that provide educational experiences and 
employment opportunities on a continuous basis. This increase builds 
upon the $13.5 million in youth employment and engagement programs that 
the NPS received in FY 2010 and the $4.4 million that was provided from 
recreational fee revenues to youth projects that benefit the visitor 
experience.

Land Acquisition and State Assistance
    The NPS FY 2012 budget proposes funding totaling $360.0 million for 
Federal land acquisition and State Conservation grants funded through 
the LWCF, an increase of $233.7 million from the FY 2010 enacted level. 
Of the total amount, $160.0 million is available for land acquisition 
projects and administration, including $10.0 million to provide grants 
to States and local communities to preserve and protect Civil War 
battlefield sites outside the national park system through the American 
Battlefield Protection Program.
    Beginning in FY 2011, the Department instituted a coordinated 
process for prioritizing Federal land acquisition projects among the 
three Departmental land management bureaus and the U.S. Forest Service. 
The cross-bureau criteria emphasize opportunities to jointly conserve 
important landscapes, especially river and riparian areas, wildlife 
habitat, urban areas that provide needed recreational opportunities, 
and those containing important cultural and historical assets. 
Additional criteria for these projects include the ability to leverage 
partner funds, the degree of involvement with other Interior bureaus 
for the project, and the urgency for project completion. The FY 2012 
land acquisition request totals over 98,800 acres of the highest 
priority landscapes, spanning the country from Alaska and Hawaii to 
Maine and Florida and the Virgin Islands. As required by law, the 
proposed tracts are located within authorized park boundaries.
    The request also provides $200.0 million, including administrative 
costs, for State Conservation Grants funded by the LWCF, a net increase 
of $160.0 million from the FY 2010 enacted level. Of this total, at 
least $78.0 million would be distributed equally to States as required 
by law, an increase of $40.8 million over the FY 2010 enacted level. 
With the remaining funds, the 2012 budget proposes developing a 
competitive component targeted at community parks and green spaces, 
landscape-scale conservation, and recreational waterways. These grants 
would address the public's concern about the lack of open space and 
outdoor recreational areas in certain urban and other areas that was 
frequently conveyed during listening sessions for the America's Great 
Outdoors initiative.
    The competitive component would fund ``signature projects'' that 
create more outdoor recreational opportunities and conserve open space 
where access to natural areas has been inhibited or is unavailable; 
protect, restore, and connect open space and natural landscapes; and 
provide access to waterways. The projects would be expected to be 
larger in scale and would likely require and receive greater amounts of 
funding than has typically been awarded. NPS estimates that 10 to 50 
grants could be funded to support acquisition of open spaces and 
natural areas and development of facilities for outdoor recreation 
across the Nation. Under the LWCF Act, a single State cannot receive 
more than 10 percent of total grant funds, so no State would receive 
more than $17.9 million under this proposal. Each State would continue 
to automatically receive an apportionment that would total 
approximately $1.5 million. Applications would be evaluated using 
standard LWCF State grant criteria, as well as new criteria, such as 
the project's ability to increase and improve recreational access or 
the use of science and mapping to identify valuable lands for wildlife 
conservation.

National Recreation and Preservation
    The National Recreation and Preservation appropriation funds 
programs that support local and community efforts to preserve natural 
and cultural resources. For FY 2012, $51.6 million is requested; a net 
decrease of $16.9 million from the FY 2010 enacted level. The request 
includes an increase of $1.1 million for the NPS Rivers, Trails, and 
Conservation Assistance program to bolster technical assistance to 
communities that are working to increase and improve recreational 
opportunities. As a key component of the Administration's America's 
Great Outdoors initiative, this increase would help provide an 
important resource to local communities as they work with States to 
implement projects funded from the proposed $200.0 million for the LWCF 
State Assistance program.
    The budget also includes a request of $2.0 million for the 
Chesapeake Bay Gateways and Water Trails grants program. This proposal 
reflects the Administration's continuing commitment to ecosystem 
restoration, including stewardship of the Chesapeake Bay, pursuant to 
Executive Order 13508. The funds would provide technical and financial 
assistance for conserving, restoring and interpreting natural, cultural 
and recreational resources within the Chesapeake Bay watershed.
    As noted above, the budget proposal provides $19 million in savings 
by not funding Statutory Assistance earmarks or Preserve America Grants 
and cutting in half Heritage Partnership Program grants to encourage 
self-sufficiency among well-established National Heritage Areas while 
continuing support for newer areas. These reductions are proposed to 
focus NPS resources on the highest priority needs within parks.

Historic Preservation Fund
    The NPS plays a vital role in preserving the Nation's cultural 
history through a variety of programs that address preservation needs 
nationwide. The FY 2012 request for the Historic Preservation Fund is 
$61.0 million, a decrease of $18.5 million from the FY 2010 enacted 
level. The FY 2012 budget provides an increase of $6.5 million, of 
which $3.5 million is for Grants-in-Aid to States and Territories and 
$3.0 million is for Grants-in-Aid to Tribes. The total budget request 
for HPF in FY 2012 is $50.0 million for Grants-in-Aid to States and 
Territories and $11.0 million for Grants-in-Aid to Tribes. These key 
increases were provided as part of the America's Great Outdoors 
initiative to support increased State and Tribal National Historic 
Preservation Act compliance requirements and an expected 25% increase 
in the number of Tribal Historic Preservation Offices between 2010 and 
2012. No funds are requested for the Save America's Treasures grants 
program in order to focus NPS resources on the highest priority needs 
within parks.

Construction
    The $152.1 million requested for Construction includes $70.3 
million for line-item construction projects. The line-item request, 
along with recreation fee revenues and park roads funding will provide 
substantial resources for protecting and maintaining existing park 
assets. Funding through the American Recovery and Reinvestment Act and 
previous appropriations has enabled the NPS to make significant gains 
in addressing outstanding construction projects. The NPS should 
complete all ARRA-funded construction projects in FY 2012. The request 
funds 14 projects including continuation of ecosystem restoration at 
Olympic and Everglades National Parks and critical new projects at Big 
Cypress National Preserve, the National Mall, and the Flight 93 
National Memorial. The budget proposes funding for the highest priority 
health and safety and mission-critical projects and does not propose 
funding for new facilities or deferred construction of replacement 
facilities. It also includes funding for the Great Smoky Mountains 
North Shore Road settlement agreement.

Performance Integration
    In formulating the FY 2012 budget request, the NPS used a variety 
of tools to incorporate performance results into the decision-making 
process. These tools include the Budget Cost Projection Module, the 
Business Planning Initiative, and the NPS scorecard, as well as 
continued program evaluations. These tools are used to develop a more 
consistent approach to integrating budget and performance across NPS, 
as well as to support further accountability for budget performance 
integration at all levels of the organization. Given the far-reaching 
responsibilities of the NPS, we must remain strategic in our thinking 
and decision-making.
    Mr. Chairman, this concludes my summary of the FY 2012 budget 
request for the National Park Service. We would be pleased to answer 
any questions you or the other members of the subcommittee may have.
                                 ______
                                 
    Mr. Bishop. OK. Thank you for your testimony. At this point 
we will start the questioning for the witness, as obviously a 
beautiful day like today turns our attitudes and our feelings 
to the great outdoors.
    So we will start. As was my policy the other day, I wish to 
be the last one on our side to go. So I will turn for the first 
question to the gentleman from Alaska, Mr. Young.
    Mr. Young. Mr. Jarvis, welcome to the committee. I know you 
have no surprise if I am going to ask you about the Yukon 
Charley.
    After I talked to you in my office about the incident on 
the river, I have received 20 separate cases of abuses of the 
Park Service since that case. Twenty different cases, by your 
personnel. And as you recall, you made a pledge to work with me 
to correct the behavior of the law enforcement rangers in the 
management of the Yukon Charley Preserve.
    What have you done to correct your current management and 
law enforcement officers?
    Mr. Jarvis. Congressman Young, we have intervened pretty 
aggressively in Alaska, with both the Regional Director and the 
Superintendent at Yukon Charley, to have a great discussion 
around your concerns and the concerns of the local communities 
in and around Yukon Charley about the level of enforcement, our 
authorities in that area, and recognition that we are part of 
the community up there. And I believe that there is sort of a 
new-found appreciation for a working relationship in the 
community.
    I know that for a while there was----
    Mr. Young. I haven't got all day, so I wanted to ask you, 
but I am limited on time. It is ironic to me that we have a 
letter here from the City Council of Eagle asking for a 
replacement of those that are employed there, unanimously 
signed. And actually, they say that there is no way there can 
be a working relationship.
    And what disturbs me, I have received a letter from your 
Regional Director--Sue Masica, her name is--and she says, ``I 
have strong confidence in the management and employees of the 
Yukon-Charley Rivers, and do not intend to move anybody.''
    Now, that is a non-starter. There is no relationship there, 
sir. None. And she has got a real snotty attitude. And I have 
told her that. She doesn't believe she should be working with 
the local people. She won't even visit up there.
    Now, have you checked to see whether she has gone and had a 
meeting with them?
    Mr. Jarvis. I believe she has intent to go there. I do not 
know, off the top of my head, whether she has actually gone.
    Mr. Young. Again, sir, you are head of this department. And 
to have the attitude that they are doing--they believe it is 
their park. It is not their park. This is the people's park.
    And you know, I get very concerned. By the way, what 
background check do you run on the people that are hired by the 
Park Service?
    Mr. Jarvis. We run, particularly for our law enforcement 
employees, we run an extensive background check.
    The two individuals that were the principals in the case, 
one was born in Alaska. And----
    Mr. Young. It doesn't make any difference where he was 
born. Did you run a background check?
    Mr. Jarvis. Yes.
    Mr. Young. You did. And what did you find on one of those 
employees that did the arresting?
    Mr. Jarvis. I personally not have reviewed that background 
check.
    Mr. Young. Would you believe that you would find out, one 
has about 20 different charges against him? DUIs, impersonating 
an officer, and et cetera down the line. Did you know that?
    Mr. Jarvis. I did not know that.
    Mr. Young. Well, I would suggest your Regional Director 
start looking into that. And the attitude of pulling a shotgun 
on Alaskan residents. In fact, what bothers me is, there was a 
statement by your department that says that you have 
jurisdiction to stop a boat on the moving water of the Yukon 
River. Is that correct?
    Mr. Jarvis. That is correct.
    Mr. Young. Where did you get that jurisdiction?
    Mr. Jarvis. We believe through the creation of the Yukon 
Charley National Preserve, that----
    Mr. Young. That is not what ANILCA says. What does ANILCA 
say? Section 103[c]: ``No lands which before, on, or after 
December 5 of 1980 are conveyed to the State, to any Native 
corporation, or any other private party shall be subject to the 
regulation applicable solely to public lands within those 
units.'' That is our water.
    And what gives them the authority to pull that boat over?
    Mr. Jarvis. Based on our attorneys' advice to us, we do 
have jurisdiction on the water.
    Mr. Young. Now, that is a battle between the State and your 
department.
    Mr. Jarvis. That is correct.
    Mr. Young. You are trying to establish the fact that under 
ANILCA--I had to fight with your secretary the other day--you 
don't have that authority. We will win that in court.
    But I was told by your Regional Director the Coast Guard 
gave them the authority to do so, to check a boat. Is that 
correct?
    Mr. Jarvis. I believe we are acting in compliance with, and 
in partnership with, the U.S. Coast Guard.
    Mr. Young. And the Coast Guard says no. I have talked to 
the Coast Guard. You don't have that authority, and we are not 
going to give it to you.
    So you are saying they gave it to you, and you took it 
without asking them?
    Mr. Jarvis. I was not involved in that discussion, so I 
don't really know----
    Mr. Young. Well, I would once again go back to your 
Regional Director. And those people that are doing this. 
Because you are not getting along in Alaska. And for a long 
time you were doing a good job. And they have the attitude 
right now that Alaskans don't count. It is our park.
    Now, I am going to go through this again with you. Because 
either you do something, or I will make sure it is not funded.
    Mr. Bishop. We are going to have another round of 
questioning. Thank you. Other than that, everything OK? No, I 
am sorry.
    Mr. Young. Don't get me started right now. I am going to 
move to strike the last words.
    [Laughter.]
    Mr. Bishop. I won't do that again. At the suggestion of the 
Ranking Member, the gentlewoman from Massachusetts is 
recognized for five minutes.
    Ms. Tsongas. Thank you, Mr. Chairman. And thank you, 
Director Jarvis. It is great to see you. And I would like to 
take this opportunity to thank you again for coming to Lowell, 
Massachusetts as part of our Innovative Cities Conference, in 
which we really wanted to highlight the very important role the 
creation of a national park, the impact of that park, on the 
revitalization of a post-industrial city. So I want to thank 
you for that.
    It is not only the tourism you generate, but the stream of 
Federal dollars, the impact on further development and 
investment by the state and local governments, the growth of a 
nonprofit community, as well as the extraordinary private 
sector investment that came about, over time, but as a result 
of that initial step toward creating a national park there. So 
thank you very much for joining us.
    Mr. Jarvis. It was a pleasure.
    Ms. Tsongas. But I wanted to ask you about the recently 
released America's Great Outdoors report, which highlighted the 
importance of urban parks and community green spaces. It also 
established priorities for the initiatives such as creating a 
new generation of accessible urban parks and community green 
spaces in connecting people to the parks' green spaces, rivers, 
and waterways in their communities. And I could not agree more 
with these priorities.
    Since I have come to Massachusetts I have been working on 
these same issues, and have worked closely with one group in 
particular, Groundwork Lawrence, which exists in another city 
that I represent, Lawrence, Massachusetts, to accomplish these 
goals.
    Groundwork Lawrence is part of the Groundwork USA 
Initiative, which, as you know, was launched by the National 
Park Service and the EPA in 1996 to transform blighted urban 
neighborhoods into parks and livable open spaces. And since its 
creation, Groundwork USA has developed into a network of 
extremely successful Groundwork Trusts that have a proven 
record of leveraging modest amounts of public investment into 
major private investments. For every one dollar of public 
funding, Groundwork Trusts have leveraged over $21 in private 
funding, the important partnership that can exist between the 
public and private sectors.
    With these investments, the Groundwork Trusts have not only 
transformed their physical environments, but they have created 
jobs in communities with high unemployment, and helped to 
create places hospitable for economic development.
    I was so inspired by the impact that Groundwork Lawrence 
has had in my district--took a small, horrible, ugly site along 
a modest river that goes through the city into a beautiful 
public space that young people have become involved in growing 
vegetables, flowers, and other things, becoming more connected 
to nature, but also really very important space for the 
surrounding community--that I introduced legislation last 
Congress, the Groundwork USA Trust Act of 2010, that would 
expand upon the existing 19 Groundwork Trusts, and centralize 
the administration of the program in the National Park Service.
    So as you look at the Outdoors Initiative, what is the Park 
Service doing to support programs such as Groundwork USA that 
seek to improve our urban landscape? And how will the America's 
Great Outdoors Initiative take advantage of these types of 
organizations that are already doing such great work in our 
communities?
    Mr. Jarvis. Thank you, and thank you for your great work in 
Lowell. We hold that park and that community up as the perfect 
example of how the National Park Service can strategically 
invest and leverage the partnerships with organizations, such 
as Groundwork and others, to really achieve a much, a very 
vibrant city. And we are very proud of all those partnerships.
    The America's Great Outdoors report is the compilation of 
over 51 listening sessions around the country, and the comments 
of well over 100,000 individuals, including 21 listening 
sessions with young people. We specifically held gatherings of 
young people under 24, into their teens, and they were led and 
facilitated by young people, on my staff and on the staff of 
the department, to engage in what their ideas about the future.
    And these kinds of organizations, like Groundwork and the 
Student Conservation Association and the California 
Conservation Corps and other organizations that engage young 
people in true restoration work, the development of skills and 
the development of an appreciation of America's great outdoors, 
as well as its cultural histories, as well, are at the center, 
in many ways, of the America's Great Outdoors Initiative.
    The AGO report, in sort of broad, a broad umbrella, talks 
about rivers and riverways, which are integral in so many 
years, particularly in the East, but I think in the West to a 
certain degree, we have sort of looked at our rivers more as an 
industrial asset, rather than a true asset to the social 
consciousness and the recreational opportunities of 
communities. So there is a lot of focus on rivers.
    There is a lot of focus on urban parks. Urban parks 
recognize their role in threshold experiences for the public 
and getting kids for their very first time experiencing in the 
outdoors. Yet we know that in some communities, kids, there are 
park-deficient neighborhoods----
    Mr. Bishop. Mr. Jarvis, I am going to have to ask you to 
finish in one simple sentence. You are over time.
    Mr. Jarvis. OK. So the bottom line is, the work of AGO is 
very much supportive of the work of Groundwork.
    Ms. Tsongas. Thank you.
    Mr. Bishop. I appreciate that. We will have time for other 
rounds later on.
    Mr. Jarvis. OK.
    Mr. Bishop. Mr. Coffman, the gentleman from Colorado.
    Mr. Coffman. Thank you, Mr. Chairman. And thank you, Mr. 
Jarvis, for your service to our country and being here today.
    Director Jarvis, thank you for appearing before this 
committee today. Over the past few weeks this committee has 
held budget oversight hearings for a number of agencies housed 
within the Department of the Interior.
    Based on your testimony today, and looking back on 
information this committee has already heard from, the 
Department of the Interior, the Bureau of Land Management, the 
Forest Service, and also the U.S. Geological Survey, I am 
extremely concerned about the budgetary decision-making 
process, and the lack of coordination between the land 
management bureaus within the Department of the Interior, as 
well as other administration agencies and departments.
    Finally, I am shocked at the ongoing lack of transparency 
by this Administration and the Department of the Interior.
    An issue that has recently caught my attention is President 
Obama's Great Outdoors Initiative. It appears from the 
background information I have read, as well as the written and 
oral testimony presented to the committee over the last several 
weeks, this ``initiative'' is redirecting resources and 
consuming valuable dollars, when our nation is in the middle of 
a fiscal crisis.
    For example, the USGS budget specifically proposes ``an 
additional $12 million for the restoration of some of the 
nation's most iconic ecosystems to support America's Great 
Outdoors.''
    The National Park Service budget is full of references to 
America's Great Outdoors Initiative. Specifically, the first 
line of your budget summary reads, ``The Fiscal Year 2012 
budget request reflects the President's commitment to our 
national parks with an increase of $276.6 million over the 
Fiscal Year 2010 enacted levels for part of the 
Administration's Great Outdoors Initiative.''
    I could go on and on with examples in your budget that 
request increases or divert funds based on this initiative. 
Would you explain to the committee the purpose of the 
Administration's Great Outdoors Initiative?
    I am also interested to learn more about how the initiative 
was developed. I have read that there were 51 listening 
sessions, and roughly 105,000 comments were submitted. But what 
else was involved in the development? Were you or any of your 
employees in the Park Service involved in the process? In what 
form was your input? Meetings, how often, written documents, et 
cetera.
    If not, why is the Forest Service budget based on this 
initiative? If he says--I am sorry. Do you consider this to be 
a transparent process?
    Mr. Jarvis. Thank you, Congressman. America's Great 
Outdoors Initiative began with the White House and the 
President working with Secretary Salazar and Secretary Vilsack 
in tasking us to go talk to the public, go listen to the 
public; hear what they have to say about this extraordinary 
legacy that we have in this country of America's great 
outdoors, the public lands legacy that has been set aside in 
many ways for the American public to enjoy. All of its 
benefits, from recreation, from economic development.
    But not to go out with any preconceived notion, but to 
actually listen to the public. And that is exactly what we did. 
We traveled the country for almost the entire summer, 51 
listening sessions, on ranches and in homes, in community 
centers across--in urban and rural parts of the country.
    And all of that information was then analyzed and developed 
into a set of recommendations that reflect what we heard from 
the public.
    Absolutely, I can't speak for the other Federal agencies in 
any detail, but I can speak for the National Park Service. We 
were actively involved. I have employees that work in 
communities across the country, in many, many rural and urban 
areas, and they were a participant in that they knew who should 
be invited. And said come one, come all, and participate in 
this great process.
    I do believe it was quite transparent, and there was no 
preconceived notion about this, other than a celebration of, 
and a recognition that the public land estate, and particularly 
the national parks, are an economic contributor to this 
country.
    Mr. Coffman. And what is your, how would you regard your 
backlog of maintenance in your park areas?
    Mr. Jarvis. Backlog maintenance is a serious concern for 
us, sir. It is currently pegged at about $10.8 billion. We have 
an old infrastructure in the National Park System, and it is 
going to need a lot of investment to fix.
    Mr. Coffman. So in your budget, is there monies to procure 
new properties? Or to expand existing properties?
    Mr. Jarvis. Yes, sir, there is money for the Land and Water 
Conservation Fund--$160 million--that would be focused on 
acquisition of inholdings, inside park boundaries.
    Mr. Coffman. OK. Mr. Chairman, I yield back.
    Mr. Bishop. Thank you. I recognize the gentleman from New 
Jersey, Mr. Holt, for five minutes, give or take.
    Mr. Holt. Thank you, Mr. Chairman. And thank you, Director 
Jarvis. I have been impressed with your dedication to 
protecting our national parks for future generations. And I 
always like to quote Teddy Roosevelt, as we do in this 
business, that there is nothing so American as our national 
parks. The fundamental idea behind the parks is that the 
country belongs to the people. I certainly agree.
    And whether you live in New Jersey or California or Wyoming 
or Utah, we should never forget that Yellowstone, Yosemite, 
Ion, Grand Teton, to name a few, belong to all Americans.
    You know, it is where Americans not only connect and 
commune with nature, and go to recreate and re-create, but also 
to learn the history and character of America. And the 
importance to our national sense of purpose, from preserving, 
presenting and interpreting battlefields and other sites, the 
American Revolution cannot be over-emphasized.
    I am pleased to see in your budget increases for programs 
such as the Youth in the Great Outdoors, and fully funding of 
the Stateside Land and Water Conservation Fund. And I note 
money toward preserving Civil War battlefield sites.
    Some of the Revolutionary War sites are among the most 
important, and even popular, in the Park System. But many 
others are yet to be preserved, presented, and interpreted for 
all Americans.
    One way to do these is through the Heritage designation, 
such as the Crossroads of the American Revolution in New 
Jersey. Another that I hope we will have soon is through 
legislation that, such as the Revolution and War of 1812 
Battlefield Protection Act, which would have passed in the last 
Congress but for a parliamentary fluke. So I hope we will get 
that done.
    Over the last several years I have worked with our 
colleagues here to designate 14 counties in New Jersey as a 
Crossroads of the American Revolution National Heritage Area, 
which became official in 2006. I can't over-emphasize the 
importance of this, not just to New Jersey, but to the whole 
nation. These are sites that are at great risk of being lost, 
and whose significance has not been, has yet to be fully 
interpreted for Americans today.
    So with that, I hate to see a 30 percent cut in your 
historic preservation programs. I think this is so important, 
as I said, to our national sense of purpose.
    And so I realize there are tough choices in front of you, 
but I ask you please to find a way to do these things that need 
to be done for the earlier sites.
    Let me also, while I have the floor, just in a sentence, 
say that Sandy Hook needs your attention. This is a jewel in 
the most densely populated state in the country. Beautiful, 
natural scenery that is accessible to millions. And so with 
that, I would ask your comment on what can be done with, in the 
face of this proposed 30 percent cut in historic preservation.
    Mr. Jarvis. Thank you for that question, Congressman. We 
did try, through the budget process, to identify several 
programs specific to historic preservation.
    And as you indicated, you know, the National Park Service 
has turned to tell America's story, you know, from the 
Revolution--from settlement, Revolution, Civil War, the War of 
1812, you know, right up through, you know, even our current 
activities, Flight 93 and the War on Terrorism. You know, World 
War II, Vietnam, all of those.
    And to quote another great American, Gen. Tommy Franks said 
there is nothing more patriotic than the national parks, 
because we tell that story. And the Revolutionary War story is 
essential to it, as well.
    We did request a $1 million increase to our Battlefield 
Acquisition Grants Program, which is focused broadly on 
battlefield sites, including Revolutionary War sites. We did up 
some funding for our State Historic Preservation Officers to 
help them identify and get protection on these critical 
resources that are not----
    Mr. Bishop. I am sorry again, Mr. Jarvis. The red light is 
on. One sentence, do it.
    For everyone here, you guys don't have the opportunity of 
seeing what the time is coming down here. But if you watch the 
monitor there, we have been going over on every one of those by 
30 seconds to 45. I am going to try to cut you off as closely 
as we can. I apologize for that.
    So I will cut off the next speaker, which happens to be the 
gentleman from Colorado, Mr. Tipton, you get that.
    Mr. Holt. Mr. Chairman, you might ask if it would be 
possible to put a clock back on the mantelpiece.
    Mr. Bishop. We were just talking about that, and I think it 
is a good idea. I would also say, though, there will be other 
rounds of questioning. And also, if you want to submit 
something as a question in writing, I am sure Director Jarvis, 
in a very timely manner, would like to respond to it.
    Mr. Jarvis. Absolutely.
    Mr. Bishop. The gentleman from Colorado.
    Mr. Tipton. Thank you, Mr. Chairman. And thanks, Director 
Jarvis, for being here. We have a lot of national parks 
obviously in Colorado.
    In my Third Congressional District of Colorado, can you 
give me an idea of what some of your maintenance backlogs are?
    Mr. Jarvis. In those specific parks, or in general?
    Mr. Tipton. Yes, just in general.
    Mr. Jarvis. The biggest challenge we have is that over 60 
percent of the infrastructure of the national parks were built 
prior to 1970. You know, we have 68,000 assets in the National 
Park System, 21,000 buildings, 16,000 miles of road. And you 
know, they are well used by the American public, and old.
    So over the last 10 years we have invested extensively in 
understanding that, and how we need to invest strategically, 
particularly in critical systems.
    Mr. Tipton. What is the estimated amount of dollars that 
you----
    Mr. Jarvis. Ten-point-eight billion.
    Mr. Tipton.--need to--pardon me?
    Mr. Jarvis. The total deferred maintenance is $10.8 
billion.
    Mr. Tipton. Ten-point-eight billion dollars. And that 
brings me really to my next question. I see that you have a 
line item for $168 million, which is kind of a pimple on $10 
billion. But $168 million to acquire new lands.
    And I am kind of curious, in terms of your opening 
statement, you were talking about the prioritization process 
that you went through. When we have that big of a backlog in 
terms of deferred maintenance, why are we stripping off $168 
million in valuable resources now to acquire new lands?
    Mr. Jarvis. The Administration set the priority to go for 
full funding of the Land and Water Conservation Fund at $900 
million. That is money that is generated from the revenues of 
Outer Continental Shelf oil leasing that comes back to the 
Treasury.
    And in many ways it is different money than that which is 
used for our deferred maintenance program, which is the more 
operational side of the house. It is a trade-off, there is no 
question about that.
    Mr. Tipton. Did the Administration ask for your input on 
that? Because in these tough economic times, we really do need 
to prioritize. And expanding the scope of the Park Service--I 
happen to be a big supporter of our public lands, as I believe 
everyone on this committee is. But we have some constraints 
right now.
    So did they seek your input? And was that your guidance to 
the Administration, to acquire more lands, rather than to 
correct some of the problems that we have under current 
holdings?
    Mr. Jarvis. Absolutely they did seek my input, and I did 
make a strong case that our deferred maintenance is a concern. 
We need to be investing on an annual basis on bringing that 
deferred maintenance down, particularly in the critical 
systems.
    Mr. Tipton. All right. Well, I guess I didn't understand 
that. You did stand up and say that you were pushing for the 
deferred maintenance over acquiring new lands? Is that 
accurate?
    Mr. Jarvis. I pushed for an appropriate balance between 
those two.
    Mr. Tipton. OK. Have you run any sort of a cost benefit 
analysis? Because I get a little worried in terms of 
duplicative government, where we have redundancies. And we have 
the EPA out now looking at climate change, and impacts that are 
going to be there. And now we are again taking very precious 
resources right now, in terms of many of the treasures that we 
have here in our country, trying to be able to protect them all 
across. Mine happens to be some of the oldest in the United 
States, with Mesa Verde National Park.
    But we are stripping off some of those resources, getting a 
redundant program. Do you have any statistical analysis? Have 
you done any cost benefit analysis in terms of the use of those 
dollars? Or should we maybe be letting another agency do that, 
and we get back to repairing the roads that need repaired?
    Mr. Jarvis. Well, in the case of the National Park Service 
in terms of the amount of money we are requesting, I don't 
think that is duplicative of any other program. Ours is very 
site-specific.
    What we are working on is looking at the impacts directly 
on the ground, within our national parks, that are a concern to 
us. Such as, you know, the change in and rain on snow in the 
fall, which causes extreme damage to visitor facilities in some 
of our parks.
    Mr. Tipton. OK. Mr. Chairman, I yield back the balance of 
my time. Thanks.
    Mr. Bishop. Thank you, I appreciate that. The Chair will 
recognize for five minutes the gentlewoman from Ohio, Ms. 
Sutton.
    Ms. Sutton. Thank you, Mr. Chairman. And thank you, Mr. 
Jarvis, for being here today. The work of the national parks is 
invaluable to our nation, and I thank you for your service.
    Mr. Jarvis. Thank you.
    Ms. Sutton. As you may be aware, the Cuyahoga Valley 
National Park sits in my district. And it is the only national 
park in Ohio. Not only is it a critical economic asset to our 
district, it also brings together corporations, individuals, 
and philanthropic groups toward a common goal of preserving our 
natural assets.
    I want to just, at the outset, say in terms of land 
acquisition, this park is a good example of why an appropriate 
balance of those funds is necessary.
    The Cuyahoga Valley National Park is not situated in the 
same way as many of our bigger national parks is. The borders 
of the park are two large metropolitan areas and countless 
smaller communities, and it is a rare gem in the middle of what 
people think of sometimes as a very industrialized area.
    But because of the proximity to several major cities, there 
are also some very special opportunities that exist, that would 
not otherwise be there without that park. Countless children 
from the area have been able to experience youth education 
programs through the park's Environmental Education Program.
    And I know that you, Mr. Jarvis, have been a champion of 
youth education and involvement in the national parks, and I 
want to compliment you on raising the profile of those 
important programs.
    Could you just discuss for a moment--as I said, I want to 
just highlight the significance of this park as an economic 
engine for our area that has literally kept many small 
businesses afloat during these economic times that surround the 
park. But also, if you could just speak to the budget for the 
National Park Service in terms of the youth education programs, 
because I think that is another area of extreme significance 
for our park in particular.
    Mr. Jarvis. Thank you so much, and thank you for all your 
support at Cuyahoga. It is an exemplar for us on how a park 
with proximity to urban environments can really, really shine. 
And John Divo, and now Stan Austin there, I think are doing 
excellent jobs with that.
    In particular with the focus on youth, I am going to have 
my budget person pull up exactly what we are spending on 
planning for youth programs. And there is a significant 
investment in this budget for youth employment, youth 
engagement across the system, through partners.
    I think that the key to the future of youth engagement is 
definitely through these partners. Groundwork is a perfect 
example. The Boy Scouts, the YCC, all of those kinds of things. 
So I will get back to you with the total figure here, because 
there is a whole laundry list of a variety of things here.
    But it is around $15.3 million service-wide for youth 
programs this year. Some of them are going to be quite 
innovative. So I would love to come talk to you about those in 
detail.
    Ms. Sutton. Thank you, I appreciate that. And I do think it 
is important, when we think of the national parks, to think 
that this national park, as I say, in a very industrialized, at 
least some people consider a very industrialized area, is, I 
believe last year was the sixth most visited national park in 
the country.
    So it is not what people traditionally necessarily think of 
when they think of the national parks, but such an important, 
important jump for us.
    In 2008, Congress directed the National Park Service to 
conduct evaluations of the nine National Heritage Areas, 
including the Ohio and Erie Canal, which of course runs through 
the 13th District, and throughout Ohio, with the goal of having 
those evaluations completed in three years, before the 2012 
deadline.
    To date, it is my understanding that only three of the nine 
National Heritage Area evaluations have been completed. So what 
is the status of those evaluations, in light of the looming 
deadline?
    Mr. Jarvis. Well, I recently met with the Alliance of 
Heritage Areas to discuss that specifically, because some of 
them are very concerned about the sunset dates. I will have to 
get back to you on the full status of that, be glad to provide 
that to your office.
    As we have been doing these evaluations, we are learning, 
you know, there is, some of the Heritage Areas have been very, 
very successful, and are quite sophisticated in raising private 
philanthropic, as well as leveraging our investment. Some not 
so.
    And so what we are looking to do is learn as we go along 
with each one of these, so that we can assist the newer 
Heritage Areas in being successful.
    Ms. Sutton. I look forward to working with you. I yield 
back.
    Mr. Bishop. Thank you. I recognize the gentlewoman from 
South Dakota for five minutes.
    Ms. Noem. Thank you, Mr. Chairman. And thank you, Director 
Jarvis, for being here today, and for testifying before the 
Subcommittee.
    My home State of South Dakota is home to Mt. Rushmore 
National Memorial and Wind Cave National Park, and the Badlands 
National Park, as well. We are proud to host almost three 
million visitors to our state every year, from across the 
United States and across the world. It is an honor to be from a 
state that hosts what has become an international symbol of 
American democracy and freedom.
    Many of my colleagues here today can attest to the benefit 
that these national parks, monuments, historic sites, and other 
lands in the National Park System have on our areas' economic 
prosperity.
    It is also important to preserve these areas that are 
important to our nation, as well as the local communities 
around them. I am happy to be a part of this Subcommittee, and 
the opportunity to talk to you about that.
    And I want to specifically discuss with you Mt. Rushmore, 
because it has some unique challenges in front of it. It 
includes around 1200 acres of forest, along which, within Black 
Hills National Forest, they are struggling to fight the pine 
beetles that are killing our trees.
    Because of this and the potential fire hazard, Mt. Rushmore 
has had to make many changes. They have had to cancel their 
annual fireworks display, which is a big advantage for us in 
promoting our tourism, not just on the national level, but on 
the international level. And it has been very detrimental to 
our state and to our country.
    What is the National Parks plan to address the pine beetle 
problem? I have met with the superintendent of that park 
specifically, and she indicates and they indicate that they 
have a real problem with funding and with resources.
    So I would like to ask you, is there adequate funding to 
address the pine beetle issue on Mt. Rushmore? Because it does 
impact not only Mt. Rushmore, but will impact our entire Black 
Hills region, the community, the economics of the area, and our 
entire state. So what signs of progress have you seen, and what 
requests have you made on their behalf?
    Mr. Jarvis. We have made specifically a request in the 2012 
budget for control of the mountain pine beetle, in coordination 
with the U.S. Forest Service, where most commonly we are 
adjacent to. And it really is a problem, and it has to be 
addressed for Mt. Rushmore, Black Canyon, Grand Teton, Rocky 
Mountain, and a few others where the mountain pine beetle 
infestation has really created a particularly problematic 
situation, with large fuel accumulations.
    We have to be very targeted in that use of those kinds of 
funds, to focus on areas of greatest risk: the wildlife-urban 
interfaces, the places where we have investment risk, or the 
public's risk. This is such a broad problem across the West 
that we have to be very specific.
    And frankly, there is not enough funding to take it all on, 
so we have to be very strategic in that. But we are working 
very closely with the U.S. Forest Service, particularly at Mt. 
Rushmore.
    Ms. Noem. Can you tell me where Mt. Rushmore might be on 
that priority list?
    Mr. Jarvis. Well, it is part of our funding for the 2012 
program, specifically for pest management in that area.
    Ms. Noem. OK. So in regards to that, then, the 
Administration has proposed over $160 million for land 
acquisition. So while the current lands are struggling with 
issues like the pine beetle situation at Mt. Rushmore, it seems 
that it would be wise to make sure that our current lands are 
taken care of and maintenance is taken care of, before we try 
to acquire more.
    I know you have talked about striking a balance. But in the 
meantime, if we are not maintaining and taking care of the 
lands we currently have, what is your feelings on that in 
regards to acquiring more that we may not have the resources to 
care for, as well?
    Mr. Jarvis. Well, the National Park Service, the Land 
Acquisition Program focuses on lands that are inside park 
boundaries. And so actually there is an efficiency to be gained 
through consolidation of land holdings.
    So in many ways it is an efficiency effort, to acquire 
these inholdings, from willing sellers, to provide--and the net 
effect really doesn't affect us very significantly in terms of 
operational increases as that.
    So I do think there needs to be always an appropriate 
balance between some land acquisition and a focus on our core 
responsibilities of operations.
    Ms. Noem. OK. So it is your understanding that the land 
that the United States would consider acquiring would all be 
land that is currently within or surrounded by national----
    Mr. Jarvis. That is correct.
    Ms. Noem. OK.
    Mr. Jarvis. Yes, that is correct.
    Ms. Noem. Thank you for the clarification. I appreciate 
that.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Mr. Bishop. I would like to recognize the gentleman, the 
Ranking Member, at this time, for five minutes.
    Mr. Grijalva. Thank you very much, Mr. Chairman. Director 
Jarvis, the question I have been asking your colleagues from 
the other services. A government shutdown. How would that 
impact the National Park Service? And the discussions we have 
been having today about needs and acquisitions and budget 
priorities.
    Mr. Jarvis. In anticipation of the potential for a 
budgetary shutdown for Fiscal Year 2011, we have run analyses 
on our national parks to look at essential personnel necessary 
to protect critical resources and to keep critical systems in 
place.
    But if we were to go to a full shutdown, then the units of 
the National Park Service would be essentially closed to public 
use.
    Mr. Grijalva. Let me ask another question, and it has to 
do, again, it is a fiscal question. It is a reimbursement 
question.
    On the border, border protection being a critical issue, 
your interface with Homeland Security and that. And as the law 
enforcement portion of the service continues to expand, and we 
are dealing with places like Oregon Pipe and Big Bend and other 
places, you are dealing with more issues relative to security, 
supplanting in some cases, and supplementing in other cases, 
the efforts of Homeland Security and their law enforcement 
activities.
    And there is a cost attendant to that. Because I believe 
you are taking that law enforcement function from visitor 
issues, from resource protection, into the very critical work 
that is being done on the border on overall security.
    Homeland Security is one of those exempt departments in 
terms of budget cuts. Is there any reimbursement from Homeland 
Security for the fact that Park Service, through its law 
enforcement arm primarily, is supplanting in some instances, 
and supplementing very strongly those law enforcement efforts 
along the border?
    Mr. Jarvis. No, sir, there is no reimbursement for the 
operational responsibilities that we have developed along the 
border.
    We have increased our law enforcement numbers, over 100 
rangers, law enforcement rangers, particularly in the Tucson 
sector where Oregon Pipe, Tohono Odom, Cabeza Prieta areas are, 
to provide basically additional support to the challenges along 
the U.S.-Mexico border.
    The National Park Service Rangers bring a unique set of 
skills to that, that do augment the responsibilities of 
Homeland Security. And we have a very good working 
collaborative relationship down there.
    Mr. Grijalva. And I don't know how you can extrapolate 
that, but if at all possible, if you could provide the 
committee with those costs.
    Mr. Jarvis. Certainly.
    Mr. Grijalva. I think that is something that I have asked 
in the past about pursuing. Because, in discussing with your 
staff in those parks, they have to divert from visitor 
services, from resource management, from resource protection, 
to supplementing what Homeland Security is doing on the border. 
And I am just curious as to cost; and if at all possible, I 
would appreciate that very much.
    Mr. Jarvis. We would be glad to develop that analysis and 
provide that to your office.
    Mr. Grijalva. And one other question. The process that is 
going on right now in terms of the four options being presented 
around Grand Canyon National Park, which would be used to 
determine what withdrawal of lands around the park would occur. 
When does that public comment period close? And how soon after 
that closure do we anticipate a decision on the part of the 
Park Service and the Secretary?
    Mr. Jarvis. Let me just check in terms of the, when that--I 
don't remember off the top of my head in terms of the Grand 
Canyon uranium withdrawal.
    We have a draft environmental impact statement in play 
right now, which was released, let us see--yes, the DEIS 
comments are due June 20. Is that correct? Yes, I think that is 
over flights. That didn't sound right.
    I will have to get back to you on the exact date. But we 
have a DEIS that was put out in cooperation with the Bureau of 
Land Management. We are in the process of getting public 
comment as we speak. And I will get back to you on the date 
that that is due.
    Mr. Grijalva. OK. And just some cursory indication of what 
the participation has been up to this point, prior to the 
closing. I will yield back.
    Mr. Bishop. Thank you. The Ranking Member gave a great 
question as far as the cost. My office would like to have those 
numbers, as well as his, at the same time.
    I, too, have not gone first round, but Mr. Young has a 
medical appointment at 11. Is it all right if I allow him to 
go? And then Mr. Duncan, you will be the next one after that.
    Mr. Young. Mr. Jarvis, I will get back to the same subject 
I was talking about. Where the stated purpose of approaching 
boats by the Park Service on the Yukon River is to conduct boat 
safety checks, and to check for the State of Alaska boating 
registration, did the State of Alaska give you this authority, 
or ask you to enforce their boater registration requirements?
    Mr. Jarvis. I am unsure of that. I will find out.
    Mr. Young. Well, the answer is no, the state did not do 
that. But nevertheless, you have charged Mr. Wyler for 
violating state boater registration laws. I mean, this is a 
rotten thing you are doing up there. I mean, there is no 
justification for that. You don't have the authority, they 
didn't have the authority. And yet you are charging Mr. Wyler 
for boat registration. That is a state law, not yours.
    So again, get into the bottom of this, and check that 
superintendent of yours out. Because I am going to hound you 
until something is done up there. I just want you to know.
    Mr. Jarvis. Yes, sir. I kind of expect that. Yes, sir.
    Mr. Bishop. Mr. Duncan, as usual, I lied. Mr. Garamendi 
from California has entered here; it is his turn next. And then 
I promise.
    The gentleman from California is recognized.
    Mr. Garamendi. Mr. Jarvis, it is a pleasure to see you once 
again.
    Mr. Jarvis. Great to see you.
    Mr. Garamendi. I think the last time I saw you, you had not 
yet assumed this position.
    Mr. Jarvis. That is correct.
    Mr. Garamendi. We know you have your tasks, whether it is 
boat registration or not. Nonetheless, enforcing the laws and 
protecting the resources of our national parks is your task. 
And I suppose if somebody is inappropriately operating in a 
national park, you should be, and your superintendent should be 
paying attention to that.
    I am concerned about your budget. As near as I can 
remember, for the last 30 or 40 years, you have never had 
enough money to maintain the national parks to their best 
standard. You have asked for some more money on maintenance. 
Could you, you may have already gone through this; if you have, 
just say yes, I have gone through it already, and sorry you 
weren't here earlier, Congressman.
    But if you have not, could you please just talk a little 
bit about the maintenance and the deferred maintenance and the 
like?
    Mr. Jarvis. We have asked, in the 2012 request, for an 
increase of $7 million in our Cyclic Maintenance Program. And 
we have also asked for an increase of $35 million or so for 
operations at 100 parks, some of which would be applied to 
deferred maintenance.
    There are other decreases in some of our capital accounts, 
such as line item, which would have an impact on, or basically 
give us a reduced ability to address deferred maintenance.
    Mr. Garamendi. So how far behind will we be, 30 or 40 years 
behind in all of this?
    Mr. Jarvis. At this rate, we could be very far behind. Our 
current deferred maintenance is at $10.8 billion.
    Mr. Garamendi. So the longer we go, the more behind we get.
    Mr. Jarvis. It grows at about 2 percent per year.
    Mr. Garamendi. My recollection, when I was involved in this 
more deeply as Deputy Secretary, this was a very, very severe 
problem. Not only a problem of critical national assets being 
lost to decay, but also safety issues. I assume that that is 
still the same situation?
    Mr. Jarvis. I think in the ensuing years, we have invested 
significantly in a better understanding and prioritizing what 
resources we do have on critical systems, particularly those 
that are concerns for safety, for water quality, those kinds of 
things.
    So the large number of $10.8 billion is the total. But in 
reality, the critical systems--life, health, safety, those 
kinds of things--are more in the $3 billion category.
    And so with the resources we have, which is somewhere in 
the neighborhood of $350 million a year, we are investing 
predominantly in those critical systems. So I think we are 
making some headway in those areas, but on the big number, no.
    Mr. Garamendi. OK. A final is that in the past, and I think 
this is continuing, on those icon parks, reaching out and 
finding private support to be joined with public support, how 
is that going?
    Mr. Jarvis. For the big parks, the big iconic parks like 
Yosemite, Yellowstone, Golden Gate National Recreation Area, 
Rocky Mountain and others, we have excellent philanthropic 
partnerships, friends, organizations that have been quite 
successful at raising funds for them.
    On the broader scale, we have the National Park Foundation, 
the legislatively created philanthropic partner, which I 
believe is on a very good path now to increase the 
philanthropic and private sector support for our parks.
    Mr. Garamendi. A final point, just a point here. I did 
serve on the National Parks Foundation, and I am delighted to 
see it has been significantly augmented and more robust.
    We will have to rely upon private philanthropy more--well, 
we have to continue that. And urge, all of us, wherever we may 
be, we care about our own personal park. We ought to look at 
the philanthropy and assist in that. And the National Park 
Foundation is a pretty good way to do it.
    Thank you very much, Mr. Jarvis. Mr. Chairman, thank you 
for the time.
    Mr. Bishop. Thank you. Now to the very patient and long-
suffering gentleman from Tennessee, Mr. Duncan.
    Mr. Duncan. Well, thank you, Mr. Chairman. And I don't have 
any questions, but I do want to make a few comments.
    First of all, 394 units, 84 million acres, 22,000 
employees; that should be enough to satisfy almost anyone. But 
it has become clear to me over the many years that I have 
served in this position, that you can never satisfy 
government's appetite for money or land. It is just impossible. 
They always want more.
    And yet, this is my 23rd year on this Subcommittee. And I 
remember hearing when the maintenance backlog was $4 billion, 
and then $6 billion, and then $9 billion. And now today, $10.8 
billion. And I believe that over the years, the Park Service 
has hired far too many chiefs and not enough Indians, far too 
many Master's degree and PhD and experts and researchers and 
law enforcement people and historians and press people and so 
forth, when we probably should be hiring a lot more simple, but 
important, laboring maintenance people, if the backlog is to 
that extent.
    But I know, too, that all the politicians love to create 
parks. And we have created so many state and local parks across 
this country, and national parks, we have so many parks now 
that we can't get the use out of them unless our people somehow 
figure out a way to go on permanent vacations.
    And frankly, a few years ago, even as recently as five or 
10 years ago, if I had said we were going to be facing deficits 
of $223 billion in one month, as came out day before yesterday, 
people would have thought that was ridiculous. And yet I know, 
too, I know that many people still care more about what is on 
television. But all the people who really follow, all the 
millions who follow government and politics, they are not just 
concerned now; many of them are absolutely scared about the 
future of this country, and the financial condition of the 
Federal government.
    And I know from what I have read in the past and from 
hearings, that many of these national park units have very few 
visitors. They are not all Great Smoky Mountain National Parks, 
or Yellowstones, or Yosemites. And many of these parks would 
more appropriately be state, should more appropriately be state 
or local parks. As bad a shape as the states are in or the 
local governments, none of them are in as bad a shape 
financially as is the Federal government, with our $14.3 
trillion national debt.
    And finally, I will just say that I have the greatest 
respect for the gentleman from New Jersey, Mr. Holt. But I have 
heard probably at least 100 or more times in this committee 
about Teddy Roosevelt, as if an implication is Republicans 
should be ashamed they were not all wanting to create new 
national parks.
    And yet, the comparison is ridiculous. Because the Federal 
government was not nearly as big when Teddy Roosevelt was 
around. It didn't have nearly anywhere close to as many parks. 
It was not $14.3 trillion in debt. The situation is totally, 
completely different.
    And so it is just, that is a comparison that shouldn't be 
made at all, because it is almost meaningless.
    Thank you, Mr. Chairman.
    Mr. Bishop. I thank the gentleman from Tennessee. The 
gentleman from Maryland, you came in at the appropriate time. 
You have five minutes.
    Mr. Sarbanes. Thank you, Mr. Chairman. Director Jarvis, 
thanks for being here. We missed you last week. As you know, we 
had the ribbon-cutting for the new visitor center at Fort 
McHenry, which is sort of the unofficial kickoff of the 
bicentennial celebration, which is coming up. And I will 
apologize to my colleagues here in advance, I will be talking 
about it all the time over the next couple years. Just so you 
are ready for this celebration. We are really looking forward 
to that in Maryland, having the eyes in the Nation and the 
world upon us as we celebrate that 200th anniversary of the War 
of 1812, the penning of our National Anthem, and all of the 
attendant historic events.
    I did just want to ask you to speak briefly to sort of how 
the Park Service is getting ready for this, and the support 
that I know will be forthcoming. The attention not just to Fort 
McHenry, but also to the Star-Spangled Banner National Historic 
Trail. Which is actually going to be the, the Star-Spangled 
Banner Trail will actually be kind of the continuing legacy 
after the grand celebration of the bicentennial.
    So I am interested both in terms of how the Park Service is 
preparing for the bicentennial, as well as its attention to the 
National Historic Trail.
    Mr. Jarvis. Thank you, Congressman. And thank you for your 
very strong support up there. I am sorry I missed the grand 
opening. I was up there before it was opened; I plan to go 
back.
    We have in the Fiscal Year 2012 budget a request for $5 
million for our 1812 parks, that can invest in the outreach, 
exhibits, public information, program, to celebrate the 
bicentennial of the War of 1812.
    Dennis Reidenbach, who is the Regional Director for the 
Northeast, is leading this effort. And he has got a group 
around him of educators, park superintendents, and others that 
are developing this whole plan for the recognition celebration 
commemoration of the War of 1812.
    Mr. Sarbanes. I appreciate that. I don't know where the 
approval or authority came from, but I want to thank you and 
the Park Service for making my father an honorary park ranger 
last week. He has only taken the hat off twice I think in the 
last week, since he put it on.
    I did want to, before my time ran out, I did want to pick 
up a little bit on the theme of my colleague in terms of the 
use of national parks. As you know, I think I have been a 
strong proponent of legislation which we call No Child Left 
Inside, which is an attempt to promote outdoor education and 
engagement by our youth in the outdoors, in a more integrated 
way, with instructional programming across the country.
    And I would like you to speak to the fact, I assume this 
will be your perspective, that our national parks, potentially 
some that may be viewed by others as under-utilized, hold great 
promise for that kind of a partnership with our youth and with 
students, going forward. And how is the Park Service focusing 
on those opportunities?
    Mr. Jarvis. Well, I very much support the initiative. For 
the seven years prior to coming on as the director, I was the 
national co-chair of the Federal No Child Left Inside Task 
Force. I co-chaired with California State Park Director Ruth 
Coleman to coordinate our state and Federal efforts around No 
Child Left Inside.
    We believe this program has enormous potential. And we see 
all kinds of positive benefits for children when they are 
exposed to the outdoors, in terms of it can be life-changing.
    So in this 2012 budget, we have a number of programs that 
focus on this, including the Let's Move Outside Initiative of 
the First Lady, which was really originated with an initiative 
from the National Park Service.
    So we have now over 50 parks actively involved in Let's 
Move Outside, as a part of this program. So I think there is a 
huge potential for the National Park Service to be a 
significant leader in this.
    Mr. Sarbanes. Thank you. Thank you, Mr. Chairman.
    Mr. Bishop. Thank you. The gentleman from Florida is 
recognized for five minutes.
    Mr. Rivera. Thank you, Mr. Chairman. Thank you so much for 
being here today. I am honored to represent two national parks 
in my district: the Big Cypress National Preserve, and the 
Everglades National Park. I am just a short distance from a 
third, the Biscayne National Park, and very close to a fourth, 
the Dry Tortugas National Park.
    Last December, the State of Florida conveyed to the Federal 
government over 29,000 acres of state-owned land located 
adjacent to the Big Cypress Preserve, called the Additional 
Lands. We Floridians have a special place for Big Cypress 
National Preserve. We appreciate the mix of landscapes, from 
marshes and cypress swamps to its prairies and pinelands. We 
appreciate the rich wildlife, such as the colorful wading 
birds, the majestic Florida panther and, of course, our gators, 
which are deeply rooted in our appreciation of these national 
treasures.
    Along with the Everglades, they are unique. And we share 
the goals of preserving these beautiful and historic areas.
    However, we also believe that this must be done in a way 
that allows responsible, traditional access. I recently visited 
with the Big Cypress National Preserve Superintendent, Pedro 
Ramos. And I commend him for the great work he is doing. And 
also, for that matter, Superintendent Dan Kimball of the 
Everglades National Park, for their management plans. They 
deserve much of the credit for the work being done, to go 
through some difficult issues, and we are fortunate to have 
their leadership.
    However, I am concerned regarding the proposed Wilderness 
and Primitive Back-Country Management Zone Designations in Big 
Cypress, and how these designations may hinder land management 
and public access.
    Back-country recreation would allow for traditional uses, 
such as hunting, fishing, and associated vehicular access, 
which was specified by Congress when authorizing the addition 
to the existing preserve.
    So I am wondering, why can't the additional lands to the 
Big Cypress National Preserve be designated precisely as back-
country recreation, instead of wilderness? And back-country 
primitive, and Congress intended and Floridians were promised?
    Mr. Jarvis. Thank you, Congressman. I, too, have been down 
to visit the folks at Big Cypress specifically on this issue, 
and spent time with Superintendent Ramos to discuss this.
    As you well know, Big Cypress is a complicated, and often 
controversial, place. And I believe that they worked through an 
arduous public process that took almost 10 years to get to a 
point where there is an appropriate balance. The final EIS and 
record of decision designated over 130 miles ORV trails, plus 
additional trails; and reduced their original proposal for 
wilderness designation down to just about 50,000 acres, from 
original potential of 120,000 acres.
    And by the way, we are being sued by the environmental 
community on that decision, that we did not make enough 
wilderness. We just had two lawsuits filed in the last week on 
this decision, that we were not, that we allowed too much OHV 
use.
    So we think that we have struck the appropriate balance of 
providing great access to this extraordinary resource, while at 
the same time conserving some portion of it.
    Mr. Rivera. Well, I strongly urge the service to reconsider 
the designation as we go forward.
    I also appreciate your proposed investment of nearly $10 
million to continue funding Everglades restoration and 
research, as well as your proposed operations increase of half 
a million dollars for Everglades National Park. Restoring the 
Everglades is important for providing drinking water for 
millions of Floridians, for numerous tourism and recreational 
opportunities, and on-the-ground jobs that put people to work 
now.
    I recently observed firsthand one of these restoration 
effort projects, the building of the Tamiami Trail Bridge, to 
facilitate water flow. And we also learned from a recent 
economic study that Everglades restoration generates four 
dollars for every one dollar of investment.
    So could you please explain how these funds would not just 
help the Everglades ecosystem and the wildlife within it, but 
how they help people and the surrounding community? And why we 
should make these investments.
    Mr. Jarvis. The work on the Tamiami Trail is the first step 
toward, we hope, more of that. The Tamiami Trail will be raised 
so that water flows can pass through.
    Our economists give us very strong data that every dollar 
that goes locally into that community, through the National 
Park Service, results in four dollars to return to that local 
economy, in terms of tourism, food sales, hotels, construction 
workers. All of that is a direct benefit to that part of the 
world. And we have much more detailed economic data that I 
would be glad to share with you on that, how that works.
    Mr. Rivera. Thank you.
    Mr. Bishop. Thank you. The gentleman from Michigan has 
joined us. Mr. Kildee, you are recognized.
    Mr. Kildee. Thank you very much. I apologize for being 
late; I had another hearing.
    I do want to commend the Park Service for the wonderful 
parks we have in Michigan, and the maintenance of them. We all 
would like having it a little better, of course; but with the 
economy being what it is, I think you have--Isle Royale is just 
a gem. Isle Royale became part of the United States only 
because Benjamin Franklin, when he was in Paris, felt it was 
probably filled with copper, and put the boundary line up a 
little higher, so Isle Royale would become part of the United 
States rather than Canada.
    And the Sleeping Bear Dunes, Phil Hart, who was my 
inspiration of getting into politics many years ago, Phil Hart 
was the father of that. And I appreciate the care with which 
you give those and the other responsibilities you have in the 
State of Michigan.
    Thank you, Mr. Chairman.
    Mr. Bishop. Thank you. I appreciate that. Thank you, sir. 
Let me finish off this first round with a couple questions of 
my own. I have a whole lot here.
    Let me follow up on an area that Mr. Tipton started with 
you, if I could. I realize that one of the big priorities for 
you has been expanding this climate change program within the 
National Park System.
    It is somewhat seen as duplicative, since we have 
overlapping agencies that do the same thing with EPA: USGS, and 
the list goes on and on.
    Can I ask how much you plan to spend in this fiscal year on 
climate change programs?
    Mr. Jarvis. About $10 million.
    Mr. Bishop. All right. With that, though, we have also 
heard from people within the Park Service that there is, in 
this effort, no actual work product or results that can be 
shown from diverting this $10 million from infrastructure needs 
at the park level.
    How will it be possible to judge the effectiveness of this 
$10 million spent in this area? What is the work product levels 
for which you are seeking?
    Mr. Jarvis. I can give you some specific examples, 
Chairman. For instance, based on some of our climate change 
models, we expect sea level to rise. The National Park Service 
manages a lot of coastline in this country, and we have 
critical resources along those coastlines. Let us say 
archaeological sites.
    Mr. Bishop. I don't want anecdotal evidence. Give me the 
standards you are looking for. So sea level rising?
    Mr. Jarvis. No. The standard is vulnerability assessment. 
We want to assess the vulnerability of critical resources from 
let us say sea level rise. So by doing--the difference that we 
do in the National Park Service is, we are very place-based. We 
are not theoretical. We are looking right down on the ground, 
to say, you know, if the sea level rises, you know, one foot in 
the next 50 years, then what resources are at risk.
    Mr. Bishop. All right, but once again, the question that is 
coming from people within your department is how do we know we 
have actually done something. So I am asking what standard will 
be used to judge that we actually have had a work product 
produced by this money.
    Mr. Jarvis. We are developing what we call vulnerability 
assessments for all of our national----
    Mr. Bishop. When will you have that finalized, and can 
share it with this committee?
    Mr. Jarvis. I don't have a timeline on completion of that, 
but I would be glad to get back to you on that. I just don't 
have that in front of me.
    Mr. Bishop. All right. We would ask for that, in a timely 
fashion.
    I have about half my time left. Let me go to one other 
element that also deals with climate change, and then I will go 
to some other areas on the other rounds, which I have.
    You have said if there is any silver lining, climate change 
is forcing us to think and act at the landscape scale, words I 
don't like to hear. ``No longer can we think of parks as 
islands. We have to be planning mitigation corridors so species 
can migrate northward.''
    I am concerned that there is a mindset within the NPS that 
believes that the mission should take you outside of the 
boundaries of the National Park Service, as well. So I want you 
to tell me how you envision managing a landscape scale when you 
run up against impediments like simple things like private 
property, or state lands? Do you actually believe your 
management scale should go outside the natural boundaries of 
National Park Service property?
    Mr. Jarvis. I don't believe the National Park Service's 
responsibilities are outside of our boundaries, but I do 
believe that the Federal and state responsibilities, in 
aggregate, need to look at the landscape scale. Everything that 
we hear and read about climate change says that species that 
normally migrate need corridors to migrate, and they need some 
way to move across certain landscapes.
    Mr. Bishop. So you have said, though, as far as the Park 
Service, you are not looking outside the actual boundaries of 
the Park Service.
    Mr. Jarvis. Not for our--we are looking to participate in 
those sort of large-landscapes discussions, but not to move 
outside of our park boundaries, no.
    Mr. Bishop. In other agencies that have played around in 
the areas, like pest control, wildfire management, BLM, Forest 
Service, the others, they have a record that I think is 
equivalent to yours, but not necessarily worse than yours. Do 
you have a record of better management in these particular 
areas than any other agency, which you could name?
    Mr. Jarvis. I am sorry, sir, I don't quite understand the 
question.
    Mr. Bishop. Are you better at managing these resources than 
your fellow Federal agencies are at managing these resources? 
Like forest health, pest control.
    Mr. Jarvis. No. But I think these issues, like forest 
health, are an issue that does cross landscapes, as we talked 
about with Mt. Rushmore. We are adjacent to Forest Service. And 
if we are going to treat mountain pine beetle, we have to do it 
together.
    Mr. Bishop. All right. I have other questions, but I have 
nine seconds left, so I will go to the second round.
    Ms. Tsongas from Massachusetts.
    Ms. Tsongas. Thank you. I have a question. I know you know 
that I represent, as well as Lowell National Historical Park, 
Minuteman National Historical Park. And as you have had the 
discussion around sort of the balance between purchasing 
inholdings versus deferred maintenance, I know that is a 
struggle.
    But just to give you an example of one of those inholdings 
which I have talked about, and probably will talk about ad 
nauseam, is Barrett's Farm. And I know that that is one of 
those purchases that would take place with a fully funded Land 
and Water Conservation Fund. So I thank you for that; it is an 
important piece of American history.
    But Minuteman National Park is visited by more than one 
million people each year. It preserves for future generations 
the important sites, including, hopefully, Barrett's Farm, 
associated with the opening battle of the American Revolution, 
a battle that we all know led to the founding of our country.
    And visitors are able to experience the sights, sounds, and 
spirit of the landscape on which the Revolutionary militia men 
first fought for our nation's independence. Preserving the 
soundscapes of the park is critical to achieving this goal, 
when you think of the quiet place that this great drama and 
important element of our history unfolded.
    Nearby Hanscom Field Airport recently announced plans to 
double the private jet infrastructure at the airport. These 
plans represent a direct threat to the historically and 
environmentally significant areas adjacent to the airport from 
increased jet aviation and the resulting noise and air 
pollution. Due to the severity of this threat, the National 
Trust for Historic Preservation has designated the surrounding 
area as one of the 11 most endangered historic places in 
America.
    In 2001, President Clinton established a Federal 
interagency working group, composed of representatives in the 
National Park Service, Department of Transportation, and the 
Advisory Council on Historic Preservation to ``promote the 
long-term protection of resources of the Minuteman National 
Historical Park and other historic sites in the vicinity of 
Hanscom Field.''
    Unfortunately, this effort did not make progress because, 
among other reasons, it was created immediately prior to a 
change in administrations.
    This past year, a collection of historians and activists, 
including David McCullough, Ken Burns, Doris Kearns-Goodwin, 
and Douglas Brinkley, have advocated for reconvening the 
Federal Interagency Working Group to address threats to the 
park.
    Understanding the ongoing concerns the expansion of the 
airfield poses to the park, while also appreciating the need 
for the role economic development plays in the health of our 
economy, do you think it would be helpful to seek to reconvene 
a group similar to the Federal Interagency Working Group 
established by President Clinton, that would help make progress 
in supporting economic development without adversely impacting 
the surrounding national treasures?
    Mr. Jarvis. I am not familiar with that specific work 
group, but I do know that we have a Federal interagency work 
group with FAA that addresses impacts from, you know, potential 
development of new routes or overflights. And it may be 
appropriate that we address it within that, but in this case it 
may be more, you know, at this sort of site-specific level, it 
might be advantageous to do that.
    But let me look into that and see whether or not the 
broader interagency work group with FAA that we are currently 
working with has looked into this specific one.
    We have a very good working relationship with FAA in terms 
of the discussions around everything from, you know, route 
alignment to approach alignment to, you know, and in the cases 
of the parks themselves, you know, reduced-noise aircraft, all 
kinds of things, to help reduce those kinds of impacts.
    So let me follow up with you on that.
    Ms. Tsongas. That would be great, thank you. I think the 
fear is that it will be a death by 1,000 cuts, that without a 
process that is sort of in place to deal with the need to 
address the expansion, the expansion efforts at Hanscom, while 
also protecting the natural landscape around which sound is 
actually very important for visitors to experience that moment 
in history.
    So I look forward to working with you.
    Mr. Bishop. Thank you. The gentleman from New Jersey, Mr. 
Holt.
    Mr. Holt. Thank you, Mr. Chairman. I am sorry our colleague 
from Tennessee, my good friend Mr. Duncan, had to leave. 
Because I think he was too quick to take offense, or take as a 
challenge, my quotation from Theodore Roosevelt.
    The point I was making was not that he was a Republican or 
a Democrat or a Bull Moose, but that there is nothing so 
American as our national parks. The fundamental idea behind the 
parks is that the country belongs to the people. It is 
something that, you know, I think was highlighted in the public 
broadcast of the parks last year. It is something we mustn't 
forget.
    On the general question that Mr. Duncan and others had 
about acquiring land at tough times, I guess I would ask 
whether 1940 was a time that we faced financial stringencies, 
economic stringencies here in the United States; and that we 
could not possibly have afforded to preserve the Great Smoky 
National Park, in what is now Mr. Duncan's district. It was 
unaffordable. We certainly should not have done that, I 
suppose, now, I think, still the most-visited national park in 
the system.
    Let me ask whether the money that you propose to spend on 
land acquisition, you said it will bring some efficiencies by 
acquiring some inholdings. Will it also be preserving things 
that might otherwise be lost?
    Mr. Jarvis. Yes, sir.
    Mr. Holt. OK, thank you. Furthermore, let me comment on a 
visit that I had to the park that one day will be known as the 
park formerly known as Glacier National Park, where I had a 
great lesson in the effects of climate change.
    It seems to me the money that is spent there recognizing, 
cataloguing, documenting the climatic changes is very valuable 
work. And I think you had mentioned looking at what might 
happen to seashores. But I think you would agree that looking 
at what happens to glaciers is also important to be documented, 
and important work of the Park Service.
    Mr. Jarvis. Yes, Congressman, Glacier National Park in many 
ways is the poster child for us for climate change. The 
disappearance of the glaciers in Glacier National Park is of a 
deep concern. Besides their being the namesake, they are what 
cool the streams through the summer, and are the lifeblood of 
the resident trout populations, which are important for 
recreational fishery and the center of the ecosystem there.
    Mr. Holt. And not only cool the streams, but actually 
provide a stream flow that lasts all year long----
    Mr. Jarvis. That is right.
    Mr. Holt.--rather than drying up in the summer. Let me ask 
a completely separate question.
    The Delaware River is part of the Scenic River National 
Scenic River System. I am wondering whether you, whether 
someone from the Park Service is taking part in interagency 
discussions of the effect on the water quality of drilling and 
mining activities, in particular fracking, hydraulic 
fracturing, in the Delaware River watershed.
    Mr. Jarvis. Yes, sir.
    Mr. Holt. You may not have primary responsibility for 
drilling, I understand. But are you taking part in interagency 
discussions of this?
    Mr. Jarvis. Yes, sir. We are participating actively in the 
interagency work, looking at the Marcellus Shale and the 
fracking proposals in the Pennsylvania-Ohio regions for the 
development of these gas resources. Absolutely, we are 
participating. And with concerns for protecting water quality, 
in particular.
    Mr. Holt. Thank you. And if I had time, I would ask you to 
discuss your plans for the National Mall, America's front yard 
and back yard. But I do not, so I hope maybe you can supply 
more information to us for the record.
    Mr. Jarvis. Yes.
    Mr. Holt. Thank you.
    Mr. Bishop. The gentleman from California is recognized for 
five minutes.
    Mr. Garamendi. I will be brief. Mr. Holt covered the 
climate issues; there are numerous ones, that he basically 
spoke to a few.
    The one other thing I would like to comment on, and just 
say yes or no. My recollection is in recent decades, every 
national park originated with a piece of legislation put 
forward by some Member of Congress or Senate. Is that correct?
    Mr. Jarvis. That is correct. With the exception that some 
national monuments are created under the Antiquities Act by the 
President.
    Mr. Garamendi. Thank you. So with regard to the growth of 
the national parks, if we are concerned about that, we might 
look to ourselves.
    The other question that I have really deals with the issue 
of the role of national parks. You have an organic law that 
basically sets out the general purposes. But often each unit 
has a specific law that sets out its purpose.
    Mr. Jarvis. Correct.
    Mr. Garamendi. So with regard to comparing a national park 
unit to U.S. Forest Service and their role, or to the Bureau of 
Land Management and their role, it really doesn't compare.
    For example, in Yosemite timber is not managed at all. It 
is natural. Whatever there is, when fires occur, they occur. 
With the protection of assets, keeping that in mind. And 
sometimes they are put out, and sometimes they are not.
    So it is just completely different, and the comparison just 
doesn't work, Mr. Chairman. And we may question whether, in a 
particular unit, if the national parks, the management plan is 
appropriate. And there are certainly questions in most national 
parks about that. But to compare the national parks to other 
Federal assets is a comparison that is not really useful.
    And there are plenty of questions that I have raised, and I 
am sure others have raised, about a particular unit's 
management. And we have numerous examples about that. We can 
talk about the management at the Golden Gate National 
Recreation Area with regard to oysters, for example. And it is 
appropriate for us to question those.
    Mr. Jarvis, thank you for being here. Mr. Chairman, thank 
you for what is an extremely important and fascinating 
committee. I am delighted to be on it, and look forward to 
working with you and the other Members.
    One of our great assets are our national parks, and they 
are a delightful addition to America's history and culture and 
heritage. Thank you.
    Mr. Bishop. Mr. Kildee from Michigan, do you have another 
round?
    Mr. Kildee. Thank you very much, Mr. Chairman. About three 
years ago I had the joyful opportunity of visiting the home of 
Franklin D. Roosevelt National Historic Site, along with 
Eleanor Roosevelt's home.
    I was deeply impressed by the dedication of the staff 
there. They had a really feeling for the place. But you know, 
Presidential libraries now, millions and millions of dollars 
are raised by each president, and you can raise it in various 
and sundry of ways.
    Franklin Roosevelt basically built that himself, the 
library attached to his home. And there was a fire in the home 
at one time, which required some restoration.
    But when I went through there, it must be lack of funding 
for that. Because here we have letters of Franklin D. Roosevelt 
about the Depression, World War II. I read a letter from 
Franklin Roosevelt written in 1934 to John Dingle's dad, who 
the son is still serving here in the Congress. He is the 
longest-serving--and this is a handwritten letter about a post 
office.
    And yet I looked around, and the humidifiers were what you 
would buy at Sears for your home. The electrical system is 
really antiquated, and I think there could be a disaster. And I 
know it is not for lack of devotion, of yourself and the staff, 
but for lack of dollars.
    But what are we planning to do to update that, at least so 
we don't jeopardize those valuable papers and all the other 
artifacts associated with Franklin D. Roosevelt?
    Mr. Jarvis. The National Park Service has more items in its 
museum collection than the Smithsonian. And it is a concern, in 
terms of protection and preservation of those items. Because we 
have inherited places like Roosevelt's home, other places that 
come with extraordinary historic resources that are invaluable 
and irreplaceable.
    And with the money we have, we do the best we can. If we 
can't buy the state-of-the-art, we go to Walmart and buy the 
latest we can afford.
    We have invested over the years to consolidate collections 
and put them in state-of-the-art. I believe at the Eleanor 
Roosevelt facility, we do have a museum-quality facility that 
was developed a number of years ago. But in some of these other 
places, we do not. And part of it has been funding issues for 
us.
    Mr. Kildee. Since that, because I can just tell the 
dedication of the staff in talking to some of the people here 
in Washington, their concern about that. But perhaps Congress 
has to, even while we try to balance the budget, to realize 
that those papers of Franklin D. Roosevelt are just absolutely 
priceless, and that we should do something.
    Certainly Eisenhower's library and Richard Nixon's library 
and Bill Clinton's library, they are going to be absolutely, 
probably the latest state-of-the-art for safety and 
preservation. And here we have something built when Franklin 
Roosevelt was still alive, and by the standards of that day.
    Mr. Jarvis. We do have a request in for an out-year budget 
for the development, protection, and renovation there that 
would provide that kind of museum quality. But it is not in the 
2012 budget.
    Mr. Kildee. Thank you very much. Thank you, Mr. Chairman.
    Mr. Bishop. Thank you. I am sure Sears and Walmart 
appreciate the shout-outs, as well.
    [Laughter.]
    Mr. Bishop. Ranking Member for a second round.
    Mr. Grijalva. Yes. Mr. Jarvis, about half of the Land and 
Water Conservation Fund is going to go to the states in 
competitive grants. Explain the importance of that.
    Mr. Jarvis. OK. The state side of the Land and Water 
Conservation Fund has been a program that the National Park 
Service has administered in direct association and cooperation 
with the states for, since its inception. Though it has been a 
small amount of money in recent years.
    The approach that is proposed in the Fiscal Year 2012 
budget is that 40 percent of the state side of money will still 
go directly to the states, based on population. That is a pro 
rata formula that has been traditional.
    But 60 percent of that money would be developed into a 
competitive grant program that is focused on sort of three 
broad areas. But let me say in terms of getting down to the 
specifics of the state criteria, we are going to directly 
engage the states in that discussion. And we have the first 
meeting of that next week, for the National Recreation and Park 
Association, the National Association of State Park Directors, 
and the National Association of State Liaison Officers are all 
coming in with representatives, to sit down with us and help 
develop that criteria.
    So once we do that, then we would assist the states in 
making necessary amendments to their Statewide Comprehensive 
Outdoor Recreation Plans, their SCORPs. And the focus would be 
principally on access to rivers for recreation purposes along 
waterways. It would be on urban parks, and on pieces of land 
that provide really connectivity. You know, public access to 
public lands, investment to these portals that provide sort of 
this connectivity that we have been looking for, that really 
allow the public to get to these public lands and use them for 
recreation.
    So that is kind of the focus area. But we really need to 
work with the states over this next year to develop that 
criteria.
    Mr. Grijalva. Yes, and I appreciate the criteria. Because 
that 60 percent does allow an opportunity for urban park 
development and activity, and some preservation that is 
particularly, in New Mexico and Arizona, where historic and 
cultural resource protection is important as part of the whole 
visitorship.
    Is it realistic to say that we could simply freeze 
expansion of the National Park Service while we take the 
backlog, maintenance backlog, from $10.78 billion to zero? I 
say that with about, the second part of that question is what 
would the impact be? We just froze all acquisition, and would 
we ever reach zero?
    Mr. Jarvis. Well, to a certain degree it is different kinds 
of money, in terms of the operational deferred maintenance 
versus the Land and Water Conservation funding, which comes 
from the revenue side. But let me just say in order to drive 
down deferred maintenance, we would need somewhere in the 
neighborhood of an annual appropriation specific to deferred 
maintenance in the $450 million class. And that would just be 
on critical systems. Over a period of about 10 years, we could 
drive DM down to zero. So it is not really an offset in that 
way.
    Let me just say about history doesn't stop in this country. 
History continues. And the American people always turn to the 
National Park Service to help tell the story of this country, 
which is constantly evolving.
    Mr. Grijalva. Thank you very much. I appreciate your 
presence and look forward to continuing to work with you, 
Director. I yield back.
    Mr. Bishop. Thank you. Let me pick up where the Ranking 
Member was. I think he asked some very good questions in both 
of his rounds.
    You mentioned also, not only to him but also to Mr. Tipton, 
that $160 million of the fund he was talking about is for 
Federal land acquisition. And I was appreciative that you said 
that, in exchange for construction and maintenance, was 
something with which you argued with the Administration. And 
that you tried to find--you argued for a balance. I guess the 
question is, was the balance met, in your opinion?
    Mr. Jarvis. The Administration set the priority for full 
funding at $900 million.
    Mr. Bishop. Do I take that as a yes or a no?
    Mr. Jarvis. I support the President's budget. We internally 
fought a variety of----
    Mr. Bishop. That is probably the right answer. You are safe 
with that one.
    Mr. Jarvis. Thank you.
    Mr. Bishop. I do want you to talk to me, though, about some 
of the line items in there. I notice that you have $66 million 
in a line item for construction and management; yet three 
different line items have $60 million for planning and 
management. Can you tell me why those numbers are so equal, and 
why planning is almost as high as the construction on the line 
items?
    Mr. Jarvis. I don't understand the----
    Mr. Bishop. I am sorry. It is construction and maintenance 
with the $66 million, planning and management with $60 million. 
I apologize. If you add the three line items together to deal 
with planning and management, they come to $60 million.
    Mr. Jarvis. OK. I would assume that that number, and I 
would have to look at the hard numbers on that, what the $60 
million is.
    Mr. Bishop. Oh, OK. Then maybe if you can answer that later 
in writing.
    Mr. Jarvis. We would be glad to analyze that.
    Mr. Bishop. At your pleasure, thank you. Can I ask you, and 
once again going back to some very good questions by Mr. 
Grijalva, how much has the National Park Service received in 
the form of mitigation payments from the Department of Homeland 
Security?
    Mr. Jarvis. The total for the department is around $10 
million. But I can't tell you off the top of my head how much 
is specifically to the Park Service, because it is not just for 
NPS.
    Mr. Bishop. Good, thank you. And maybe that goes to the 
second part. How are those funds counted? And how do we track 
their spending of those funds?
    Mr. Jarvis. It is a reimbursable account. So we have to 
expend, devise the project, execute, and then get reimbursed by 
Homeland Security from the account that was identified.
    Mr. Bishop. So you tell them prior to any reimbursement 
what you want, and then they reimburse you for a specific?
    Mr. Jarvis. Yes.
    Mr. Bishop. Could you give me, say, the last year's 
specifics, what they are?
    Mr. Jarvis. Certainly.
    Mr. Bishop. Thank you, I appreciate that, as well. If I 
could also ask you why does the Park Service have a policy to 
mow Jimmy Carter's lawn and home? It does not appear to be 
required in legislation that gave it title. And it is different 
than any other living situation in which somebody granted their 
property after they left this earthly existence. Why are we 
taking care of that property right now?
    Mr. Jarvis. I am going to have to get back to you on that 
one. That is pretty site-specific, and I don't really know the 
details.
    Mr. Bishop. Well, it has been in the news, first of all; 
and it is truly unique, obviously, in NPS. So I would like a 
response to that one, as well.
    Mr. Jarvis. OK.
    Mr. Bishop. I notice that your budget reduces funds for 
National Heritage Areas. And I encourage that, as you are 
making a criteria for how to judge those in the future, I think 
that is very wise.
    You also said that you encourage them to be self-
sufficient. Have we ever had a heritage area that has become 
self-sufficient?
    Mr. Jarvis. Not to my knowledge.
    Mr. Bishop. Thank you. Let me ask two more, if I may. 
Snowmobile access continues to be a problem at Yellowstone, or 
Sunkist Yellowstone if we go to the future. And I would like to 
know if the Park Service is open to crafting an approach that 
would allow private-license guides to take groups into the 
park, rather than only allowing commercial guided tours? This 
would I think allow more access, and perhaps be more 
affordable.
    Are you open to some kind of pilot program similar to that?
    Mr. Jarvis. I think the key to our success thus far in 
Yellowstone has been that all trips in are guided, of some way. 
I think the key is that whoever is guiding the group has to be 
approved by the Park Service, to understand that there are 
responsibilities for speed, protection of wildlife, all those 
kinds of things.
    We are in the middle of an environmental impact statement, 
as you well know, for winter use in Yellowstone. And I would be 
glad to discuss that with the team of some way that--because I 
think guiding of snow machines is essential to that type of 
protection. Right now it is all commercial, but I would be glad 
to talk to them about that.
    Mr. Bishop. I would be interested in that. Now, Mr. 
Grijalva, I do have one other personal question. My time is 
about to expire. Do you have something else you wanted?
    Mr. Grijalva. No.
    Mr. Bishop. Mr. Kildee, if you have another question, I 
don't want to go in front of you if you do.
    Mr. Kildee. No, I am all set. Thank you, Mr. Chairman.
    Mr. Bishop. Then let me ask this last one. I was watching 
the local news two nights ago, in which, without giving a 
shout-out to Channel 9, but it was Channel 9 news, in which 
they were talking about a woman who, back in--do you remember 
Carmageddon, back in January? Especially on the parkway; that 
is your responsibility. She was stuck on that parkway, with a 
five-year-old, she being somewhat diabetic. And in an effort to 
try and get out of that parkway, she went across the median, 
and your Park Service ticketed her for $150.
    Now, one of the reasons why I bring this up is I was on 
that same, I can't say damn, can I? That parkway, from roughly 
4:00 until 11:30 that same night. And I recognize what had gone 
through there. It was a very frustrating experience, where the 
Park Service closed the only off ramp in both directions, and 
everyone sat there.
    I am sorry, back in my home state, when you close a road, 
you try and keep people off the road, not try and keep people 
from leaving that particular road. Even though on the roadway 
going back to Washington, it was all clear at three different 
times, even though you didn't allow any cars to go on it. But 
it was nicely cleared, anyway.
    Can I ask why you were ticketing that woman? Especially 
because, in all sincerity, I went across the median as well, to 
try and get out of that mess. Three different times you had 
emergency vehicles go past us, and they didn't clear it off to 
let people out. And in the morning at 7:00, when I woke up and 
turned on the news, it was still closed, with over 50 cars 
having run out of gas and been abandoned there.
    I am very much concerned about those tickets for that 
particular night, especially this woman. It illustrates the 
situation. I am going to have to tell you, I would appreciate 
if you would look into that situation.
    Mr. Jarvis. OK.
    Mr. Bishop. Because indeed, if she has to pay $150 for 
trying to get out of that mess, and others have to pay that, 
you will be back here again.
    Mr. Jarvis. Absolutely.
    Mr. Grijalva. Could you look into why Mr. Bishop didn't get 
a ticket?
    Mr. Jarvis. Well, I was thinking of mailing him one, but 
no.
    [Laughter.]
    Mr. Bishop. Fortunately, I was on official business. And 
the other six drivers that helped push everybody over so we 
could finally get off that. It was a horrible night, I 
recognize that. But it is not that uncommon in other areas. And 
even though there was a whole lot of snow that came down, there 
were hours and hours in which that was not open to people who 
were stuck there.
    And I was very concerned, especially with that woman. 
Because, let us face it, there were no cars coming the other 
direction to inhibit her coming across and getting back to D.C.
    Mr. Jarvis. We will look into it, sir.
    Mr. Bishop. Thank you. For her sake.
    Mr. Jarvis. Yes.
    Mr. Bishop. And mine. I would appreciate you doing that.
    With that, unless there are any other additional questions 
or comments for the witnesses, I want to thank you for being 
with us and sitting here for this time.
    Members of the Subcommittee, if they have additional 
questions for the witness, they will provide them to you, I 
hope. And the hearing record will be open for 10 days to 
receive those type of responses.
    With that, I appreciate your attendance here. Mr. Jarvis, I 
appreciate you spending the time with us.
    Meeting is adjourned.
    [Whereupon, at 11:53 a.m., the Subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
